OFFICE OF INSPECTOR GENERAL 



AUDIT OF USAID'S
FINANCIAL STATEMENTS FOR 

FISCAL YEARS 2011 AND 2010 

AUDIT REPORT NO. 0-000-12-001-C
NOVEMBER 15, 2011




WASHINGTON, D.C. 

    Office of Inspector General

    November 15, 2011

   MEMORANDUM

   TO:                     David D. ostermeY      hief Financial Officer

    FROM:                  Tim Cox, AIG/A

    SUBJECT:               Audit of USAID's Financial Statements for Fiscal Years 2011 and 2010

   The Office of Inspector General (OIG) is transmitting its report on the Audit of USAID's Financial
   Statements for Fiscal Years 2011 and 2010. Pursuant to the Government Management Reform
   Act of 1994, Public Law 103-356, USAID is required to prepare consolidated financial
   statements for the fiscal year. Office of Management and Budget (OMB) Circular A-136,
   Financial Reporting Requirements, requires USAID to submit a Performance and Accountability
   Report, including audited financial statements, to OMB, Department of the Treasury and the
   Government Accountability Office by November 15, 2011. In accordance with the requirements
   of OMB Circular A-136, USAID has elected to prepare an alternative Agency Financial Report
   that includes an Agency Head Message, Management's Discussion and Analysis, and a
   Financial Section.

   OIG has issued unqualified opinions on each of USAID's principal financial statements for fiscal
   years 2011 and 2010. With respect to internal control, we identified one deficiency that we
   consider a material weakness. The material weakness pertains to USAID's process for
   reconciling its fund balance with the U.S. Treasury. Additionally, we identified six deficiencies in
   internal control that we consider significant deficiencies. The significant deficiencies pertain to
   USAID's processes for (1) reconciling loan receivables; (2) deobligating unliquidated
   obligations; (3) accounting for property, plant, and equipment; (4) accounting for accounts
   receivable; (5) accounting for advances; and (6) reconciling intragovernmental transactions.

   We found no instances of substantial noncompliance with requirements for federal financial
   management systems, federal accounting standards, or the U.S. Standard General Ledger at
   the transaction level as a result of our tests required under Section 803(a) of the Federal
   Financial Management Improvement Act of 1996.

   This report contains six recommendations to improve USAID's internal control over financial
   reporting.

   We have considered your response to the draft report and the recommendations included
   therein and have reached management decisions on the recommendations. Please forward all
   information to your Office of Audit, Planning and Coordination for final action. (See Appendix /I
   for USA/D's Management comments.)

u.s. Agency for International Development
1300 Pennsylvania Avenu e , rwv
Wac;hington, DC 20523
http://www,usaid,QOv/oig
We appreciate the cooperation and courtesies extended to us during the audit. DIG is looking
forward to working with you on our audit of USAID's fiscal year 2012 financial statements.
CONTENTS 

Summary of Results              ........................... . . .... . . . . . . . ....................... . . . . . . . . . . . . . . . .......................             1


Background   ............... ................. .................... ............ . . . . . . ....................... ........ . . . . . . ........                           2


   Audit Objective          ..................... ....... ........... ........................... . . . . . . . . . .............................                            2


Independent Auditor's Report on USAlD's Financial Statements                                                                     ................ ...... .... . . .          3


Report on Internal Control                  ................ .............. . . . . . . . . . . ...................... . . . . . . .. . . . . . . ................           5


   Material Weakness                .............. . . . . . . . . ...... ...... . . ............... . . . . . . . . ........................... . . . . . . . . . . . .     6


   USAID Does Not Reconcile Its Fund Balance With 

   Treasury Account With the U.S. Treasury and Resolve 

   Reconciling Items in a Timely Manner                                 ................ ........................... ...... . .... .................                         6


   Significant Deficiencies                    . . .. ....................... . .... . . . . . . . ............................. . . . . . . . ...............               7


   USAID's Process for Reconciling Loans Receivable 

   Is Not Effective and Does Not Resolve Differences in a Timely 

   Manner . . . . . . .. . . . . . ............................ . . . . . .. . ............................... . . . . .......................... . . . . . . . . 
          7

   USAID's Process for Reviewing and Deobligating Unliquidated
   Obligations Is Not Effective                   .......... . . . . . . . . . . . . .......................... . . . . . .. . . . . . . . . ..................... . . .     8


   USAID's Process for Accounting for and Accurately Reporting
   Property, Plant, and Equipment Is Not Effective                                          .................. . . . . . . . .......... ................... 
               10

   USAID's Process for Accounting for Accounts Receivable Is
   Not Effective    ....... .... . . . . . ............................ . . . . . . . . . . . ........................ . . . . . . . . . . . . . . . ..............         11 


   USAID's Process for Accounting for Advances Is Not Effective                                                            ........... . .. . . . . . . . . . . ....... 
   11

   Intragovernmental Transactions Remain Unreconciled                                                      .................... .... . . . . . . .............              12 


Report on Compliance With Laws and Regulations                                                     ............. . . . . . . . . ........ . ...................             14 


Evaluation of Management Comments                                     .......... ......... . . . . . . . . .............................. . . . . ..... ....                16 


Appendix I - Scope and Methodology                                   .................... . . . . . . . . . ............................. . . . . . . .......               18 


Appendix II - Management Comments                                     ..................... . . . . . . . . ............................ . . . . . ........             20 

Appendix III - Status of Prior Year Findings and Recommendations                                                                         . . ...................        24 


Appendix IV - Financial Statements, Notes, and
Required Supplementary Information                                   .......... . . .. . . . ........................... . . . . . . . . . ..................               26 

SUMMARY OF RESULTS 

USAID's consolidated balance sheets, consolidated statements of net cost, consolidated
statements of changes in net position, and combined statements of budgetary resources
present fairly, in all material respects, the financial position of USAID as of September 30, 2011
and 2010 and its net cost, net position, and budgetary resources for the years then ended, in
conformity with accounting principles generally accepted in the United States of America.

This audit identified one deficiency in internal control that the audit team considered a material
weakness, related to USAID's process for reconciling its fund balance with the U.S. Treasury.
The audit also identified six significant deficiencies in internal control related to the following
aspects of USAID's financial management processes:

•   Reconciling loans receivable

•   Accounting for unliquidated obligations

•   Accounting for property, plant, and equipment

•   Accounting for accounts receivable

•   Accounting for advances

•   Reconciling intragovernmental transactions

This audit identified no instances of substantial noncompliance with requirements for federal
financial management systems, federal accounting standards, or the U.S. Standard General
Ledger at the transaction level as a result of the tests required by Section B03(a) of the Federal
Financial Management Improvement Act of 1996, Public Law 104-20B.




                                                                                                 1
    BACKGROUND 

USAID was created in 1961 to advance U.S. foreign policy interests by promoting broad-based
sustainable development and providing humanitarian assistance. USAID has missions in more
than 100 countries, 46 of which have full accounting operations with USAID controllers. For the
fiscal year ended September 30, 2011, USAID reported total budgetary resources of
approximately $24 billion.

Pursuant to the Government Management Reform Act of 1994 (GMRA), Public Law 103-356,
USAID is required to submit audited financial statements to the Office of Management and
Budget (OMB) annually. Accordingly, for fiscal year (FY) 2011, USAID has prepared the
following:

•     Consolidated Balance Sheet

•     Consolidated Statement of Net Cost

•     Consolidated Statement of Changes in Net Position

•     Combined Statement of Budgetary Resources

•     Notes to the Principal Financial Statements

•     Required Supplementary Information

•     Other Accompanying Information

AUDIT OBJECTIVE

The Office of Inspector General (OIG) performed these audits to determine whether USAID's
principal financial statements present fairly the assets, liabilities, net position, net costs,
changes in net position, and budgetary resources for FYs 2011 and 2010.

In our opinion, the financial statements referred to above present fairly, in all material respects
and in conformity with accounting principles generally accepted in the United States of America,
USAID's assets, liabilities, and net position; net costs; changes in net position; and budgetary
resources as of September 30, 2011 and 2010, and for the years then ended.

In accordance with Government Auditing Standards, 1 OIG has also issued reports, dated
November 15, 2011, on its consideration of USAID's internal control over financial reporting and
on its tests of USAID's compliance with certain provisions of laws and regulations. These
reports are an integral part of an overall audit conducted in accordance with Government
Auditing Standards and should be read in conjunction with the independent auditor's report.




1   GAO-07-731G (July 2007 Revision)

                                                                                                 2
INDEPENDENT AUDITOR'S
REPORT ON USAID'S
FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheets of USAID as of September 30,
2011, and 2010, and the consolidated statements of net cost, consolidated statements of
changes in net position, and combined statements of budgetary resources of USAID for the
years ended September 30, 2011, and 2010. These financial statements are the responsibility
of USAID's management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted the audits in accordance with auditing standards generally accepted in the
United States; generally accepted Government Auditing Standards issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin 07--04 require that we plan and perform the audits to obtain reasonable assurance that
the financial statements are free of material misstatements. An audit includes examining, on a
test basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and the significant estimates made
by management, as well as evaluating the overall financial statement presentation. We believe
that these audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects
and in conformity with accounting principles generally accepted in the United States of America,
USAID's assets, liabilities, and net position; net costs; changes in net position; and budgetary
resources as of September 30,2011, and 2010, and for the years then ended.

As discussed in note 20 of the FY 2011 financial statements, the FY 2010 Statement of
Budgetary Resources has been restated to reflect the correction of an error in Distributed
Offsetting Receipts which is reported in Net Outlays.

The Management's Discussion and Analysis and Required Supplementary Information sections
are not required parts of the consolidated financial statements but represent supplementary
information required by OMB Circular A-136, Financial Reporting Requirements. We have
applied certain limited procedures to this information, primarily consisting of inquiries of
management regarding the methods of measurement and presentation of this information.
However, we did not audit this information, and accordingly, we do not express an opinion on it.




                                                                                                 3
In accordance with generally accepted Government Auditing Standards, we have also issued
reports, dated November 15, 2011, on our consideration of USAID's internal control over
financial reporting and on our tests of USAID's compliance with certain provisions of laws and
regulations. These reports are an integral part of an overall audit conducted in accordance with
Government Auditing Standards and should be read in conjunction with this report.

This report is intended solely for the information and use of those charged with governance at
USAID (the USAID Administrator, Deputy Administrator, Assistant Administrator for
Management, and Chief Financial Officer) and others within USAID, as well as for OMB and
Congress, and is not intended to be and should not be used by anyone other than these
specified parties. However, this report is a matter of public record, and its distribution is not
limited.




USAID, Office of Inspector General
November 15, 2011




                                                                                               4
REPORT ON
INTERNAL CONTROL
We have audited the consolidated balance sheets of USAIO as of September 30, 2011 and
2010. We have also audited the consolidated statements of net cost, consolidated statements
of changes in net position, and combined statements of budgetary resources for the fiscal years
ended September 30, 2011 and 2010, and have issued our report thereon dated November 15,
2011. We conducted the audits in accordance with auditing standards generally accepted in the
United States; generally accepted Government Auditing Standards issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended.

In planning and performing our audits of USAIO's financial statements for the fiscal years ended
September 30, 2011 and 2010, we considered USAIO's internal control over financial reporting
by obtaining an understanding of USAIO's system of internal control, determined whether
internal controls had been placed in operation, assessed control risk, and tested controls to
determine which auditing procedures to use for expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin No. 07-04, as amended. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers' Financial
Integrity Act of 1982 (FMFIA), Public Law 97-225, such as those controls relevant to ensuring
efficient operations. The objective of our audit was not to provide an opinion on internal control.
Accordingly, we do not express an opinion on internal control.

Our consideration of internal control was for the limited purpose described in the preceding
paragraph and would not necessarily identify all deficiencies in internal control that might be
material weaknesses or significant deficiencies. However, as discussed below, we identified a
material weakness and significant deficiencies in USAIO's internal control.

A material weakness is a deficiency or a combination of deficiencies in internal control that
presents a reasonable possibility that a material misstatement of the entity's financial
statements will not be prevented or detected and corrected in a timely manner. We identified
one deficiency in internal control that we consider a material weakness, as defined above,
relating to USAIO's reconciliation of its Fund Balance with the U.S. Treasury.

A significant deficiency is a deficiency or a combination of deficiencies in internal control that is
less severe than a material weakness, yet is important enough to merit attention by those
charged with governance. We identified six significant deficiencies in internal control related to
USAIO's financial management processes. Specifically, USAIO's process to:

•	   Reconcile loans receivable is not effective and does not resolve differences in a timely
     manner.

•	   Review and deobligate unliquidated obligations is not effective.

•	   Account for and accurately report property, plant, and equipment is not effective.

                                                                                                   5
•   Account for accounts receivable is not effective.

•   Account for advances is not effective.

•   Reconcile intragovernmental transactions remains a challenge.

The Management's Discussion and Analysis and Required Supplementary Information sections
are not required parts of the consolidated financial statements but represent supplementary
information required by OMB Circular A-136, Financial Reporting Requirements. We have
applied certain limited procedures to this information, primarily consisting of inquiries of
management regarding the methods of measurement and presentation of this information.
However, we did not audit this information, and accordingly, we do not express an opinion on it.

We also noted other matters involving internal control over financial reporting which we reported
to USAID's management in a separate letter dated November 15, 2011.


Material Weakness


USAID Does Not Reconcile Its Fund Balance With Treasury Account
With the U.S. Treasury and Resolve Reconciling Items in a Timely
Manner (Repeat Finding)

USAID continues to have large unreconciled differences between the Fund Balance with
Treasury (FBWT) account recorded in the financial accounting system (Phoenix) and the Fund
Balance reported by the Department of the Treasury (Treasury). As of September 30, 2011, the
differences were $96 million net ($2.1 billion absolute value). These differences persist because
USAID and its missions did not consistently perform monthly reconciliations of its FBWT
account and research and resolve differences in a timely manner. Instead of investigating and
resolving the differences, USAID adjusted its FBWT account by $125 million as of September
30, 2011. However, only $96 million was necessary to ensure that its FBWT account agreed
with the balance reported on Treasury's Form 2108, Year End Closing Statement. Therefore,
USAID will report the difference of $29 million as an unadjusted misstatement and make the
correction in FY 2012.

Additionally, our audit revealed that USAID recorded transactions in the suspense accounts that
could not be readily identified when USAID received notification of these transactions from
Treasury. However, USAID did not research and resolve these items within the 60-day
requirement established by Treasury and acknowledged that it did not meet this requirement in
its annual certification to Treasury for the periods ending September 30, 2010 and 2011 but
committed to do so by the end of FY 2012. As of September 30, 2011, the net value of the
suspense items over 60 days old was $32 million, of which $28 million related to items that
occurred between 2001 and 2007 and require an inordinate amount of resources for resolution.

Treasury Reconciliation Procedures, a Supplement to the Treasury Financial Manual, Volume I
Part 2-5100, Section V, stipulates that federal agencies must reconcile their account and any
related subaccounts at least monthly and must resolve all differences between the balances
reported on their general ledger FBW-r: accounts and balances reported in the Government-wide


                                                                                               6
Accounting  system. In addition, Treasury Reconciliation Procedures specifically states that an
agency may not arbitrarily adjust its FBWT account and only after clearly establishing the
causes of errors and properly documenting those errors should an agency adjust the balance of
its FBWT account.

Since USAID developed and implemented the Cash Reconciliation Tool (CART), some progress
has been made to identify, track, and reconcile differences between Phoenix and Treasury and
to research and properly record transactions that were previously recorded in its suspense
accounts. USAID has strengthened the reconciliation process for payments made by third
parties such as the Department of Health and Human Services, the National Finance Center
and the Department of State and plans to implement a Web-based version of CART by the
middle of FY 2012 that will aid in identifying specific missions' transactions that are part of the
differences between Phoenix and Treasury and in seeing the list of reconciling items of every
USAID accounting station in the world. This enhancement of CART will enable USAID to
resolve reconciling items more effectively and significantly reduce the differences between
Phoenix and Treasury.
Recommendation 1.       We recommend that the Chief Financial Officer accelerate the
implementation of the Web-based CART, perform complete and timely fund balance
reconciliations in accordance with the procedures established by the U.S. Department of the
Treasury, and maintain documentation to adequately support all reconciliations performed.




Significant Deficiencies


USAID's Process for Reconciling Loans Receivable Is Not Effective
and Does Not Resolve Differences in a Timely Manner (Repeat Finding)

During our audit of the Loans Receivable account, we noted that USAID continues to have a
large number of loan transactions that have not been reconciled. USAID contracted with PNC
Financial Services Group Inc. (PNC) to service its loan portfolio and to maintain accurate loan
balances. PNC processes USAID's loan transactions in its Enterprise Loan System (ELS) and
generates a monthly report of loan transactions that is uploaded into USAID's accounting
system (Phoenix) through an interface. This interface is necessary to transmit accounting
information to Phoenix for the loans that are recorded and maintained in ELS. As of September
30, 2011, USAID's unreconciled differences between amounts recorded in Phoenix and
amounts recorded in ELS totaled approximately $29 million net ($202 million absolute value).

Although USAID has made improvements in investigating and resolving these differences, a
large unreconciled difference between the two systems remains. This difference results from
unrecorded debt restructuring transactions that were not captured by the Phoenix accounting
system during the interface and from some loan transactions recorded in ELS that were not
designed to be included in the interface transmission process.         According to USAID's
management, these transactions are recorded with a supplemental journal entry following the
interface. As a result, USAID recorded an adjustment of approximately $29 million to bring the
loans receivable balance in Phoenix as of September 30, 2011, into agreement with ELS.

Generally Accepted Accounting Principles require that the sum of the account balances in the
subsidiary ledger equal the total of each line item in the general ledger at the end of the

                                                                                                 7
accounting period.      Additionally, Statements of Federal Financial Accounting Standards,
Technical Release No.6, Preparing Estimates for Direct Loan and Loan Guarantee Subsidies
under the Federal Credit Reform Act, requires that agencies maintain an audit trail from
individual transactions in the subsidiary ledger to the general ledger.

In our prior year's audit,2 we recommended that USAID's CFO (a) intensify efforts to reconcile
loan balances with PNC's ELS, (b) ensure that all transactions transmitted to Phoenix via the
interface are properly posted to Phoenix, and (c) complete debt restructuring reconciliations
within 90 days after PNC records debt restructurings in ELS. Because USAID continues to
have large unreconciled differences between the amounts recorded in its Phoenix accounting
system and the amounts recorded in ELS, we make the following recommendation.

    Recommendation 2.        We recommend that the Office of the Chief Financial Officer (a)
    develop   and implement a plan to complete its reconciliation of loan balances in the
    Phoenix   accounting system with the balances maintained in the PNC Enterprise Loan
    System    and (b) ensure that all Enterprise Loan System transactions transmitted to
    Phoenix   via the interface are properly accounted for and recorded in Phoenix.


USAID's Process for Reviewing and Deobligating Unliquid ated
Oblig ations Is Not Effective

USAID does not consistently review and analyze its unliquidated obligations (ULOs) to
determine whether those without activity for 3 years or more are still required or should be
deobligated. Although USAID headquarters and its missions performed annual reviews of
ULOs, they did not complete the process for analyzing and deobligating excess or unneeded
funds in a timely manner. When funds are deobligated, they are made available in the Phoenix
accounting system for reprogramming. During our audit, we analyzed USAID's ULOs and
determined that, as of September 30, 2011, USAID had approximately $70 million in
unliquidated obligations with no disbursement activity for more than 3 years that should be
evaluated for deobligation. Of the $70 million, we determined that approximately $17 million in
unliquidated obligations (itemized in the table on the following page) had no disbursement
activity since they were established).




2''The Audit of USAID's Financial Statements for Fiscal Years 2010 and 2009," November 12, 2010, p. 8,
http://www.usaid.gov/oig/public/fy11rpts/O-000-11-001-c.pdf.

                                                                                                    8
                           Table 1: Analysis of ULOs by Fiscal Years

                             Obligation Amounts With No Activity    Unliquidated Amounts With No
       FY   Established'             Since Establishment                  Activity in 3 years
                                             ($)                                 ($)
             2000                                      204,954                            1,860,280
             2001                                     3,151,508                         22,931,438
             2002                                      291,993                            3,559,176
             2003                                      844,349                            3,112,673
             2004                                     1,408,997                           5,977,728
             2005                                     2,286,048                           9,461,686
             2006                                     1,782,047                           7,836,576
             2007                                     3,178,966                           8,706,829
             2008                                     3,557,993                           6,753,142
             Total                                  16,706,854                          70,199,526



In addition, our audit determined that USAID had 79,800 obligations valued at approximately
$411 million in its Phoenix accounting system and its Global Acquisition and Assistance System
(GLAAS) that lacked critical procurement information. Obligation details were lacking because
contracting officers and obligation officials were not including all relevant information in the
acquisition system when recording awards. Missing information included performance period
start and end dates, which are necessary to facilitate an effective periodic review and evaluation
of ULOs. In January 2011, management mandated that performance dates be included in all
awards but our review identified several awards initiated after January 2011 that. did not have
this information.

These conditions occurred because USAID continues to have a large number of awards with
unliquidated obligations that are pending closeout audits, and because obligation officials did
not consistently include the period of performance in GLAAS for all awards so that performance
dates could be recorded in the Phoenix accounting system.

USAID's Automated Directives System (ADS) Chapter 621.3.9, 'Obligations,· requires USAID
and its missions to initiate and coordinate reviews of all ULOs at least annually to determine
whether the unliquidated obligation balances should be retained or deobligated. In conducting
reviews of unliquidated obligations to identify funds that must be deobligated, obligation officials
and others involved in the review process must consider circumstances that could result in
excessive or unneeded obligation balances.

By not evaluating ULOs, USAID risks losing program and operating expense funds that may
expire before they are deobligated. Because USAID has approximately $70 million in ULOs
with no disbursement activity for more than 3 years, we make the following recommendation.

       Recommendation 3. We recommend that the Chief Financial Officer coordinate with
       the Office of Acquisition and Assistance and with Bureau Assistant Administrators to
       (a) initiate targeted reviews of non-GLAAS obligations and batch obligations for
       automatic deobligation for small-dollar obligation balances, travel, operating-expense
       funded obligations, and program-funded obligations that are older than 5 years; (b)
       utilize services of independent public accounting firms to expedite the close out audit
       process, and (c) ensure that all obligation officials include period of performance
       dates for all procurement- type awards.


                                                                                                   9
USAID's           Process        for    Accounting          for    and     Accurately   Reporting
Property, Plant, and Equipment Is Not Effective (Repeat Finding)

USAID does not maintain an accurate listing of property, plant, and equipment (PP&E) or
adequate documentation to support the PP&E recorded in its general ledger. DUring our audit,
we found that USAID's Financial Management Division did not periodically reconcile the PP&E
account balances in its general ledger with those reported by the Overseas Management
Division (OMD); the Office of Foreign Disaster Assistance (OFDA); and the Office of the Chief
Information Officer (CIO), which monitors and approves requests for property and equipment.
As a result, USAID did not report capitalized assets totaling $180,218 that were reported by the
CIO.

Further, although USAID's Financial Management Division performed reconciliation of vehicles,
it did not investigate and resolve differences totaling $11,524,615 among the general ledger, the
Vehicle Management Information System3, managed by OMD, and vehicle records reported by
OFDA. As a result, the USAID Financial Management Division recorded a vehicle with book
value of $50,772 as a disposition, although it was purchased on January 7, 2011.

These discrepancies and errors occurred because USAID's Financial Management Division
does not (1) follow established policies and procedures outlined in ADS 629 to ensure that
complete supporting documentation is maintained for PP&E items recorded in its general
ledger, (2) completely reconcile the PP&E account balances annually to ensure that assets
accounted for by its Financial Management Division correspond to the asset information
maintained by OMD, OFDA, and CIO, and (3) review its PP&E listing to ensure that all additions
and dispositions are accounted for accurately and in a timely manner.

OMB Circular A-123, Management's Responsibility for Internal Controls, December 31, 2004,
states that the reliability of financial reporting requires management to provide the assertion that
documentation exists for all transactions and other significant events and is readily available for
examination. Additionally, OMB A-136, Financial Reporting Requirements, September 29,
2010, states that periodic analyses, reconciliations, or comparisons of data should be included
as a part of the regular duties of financial management offices. Because of the internal control
deficiencies noted above, we make the following recommendation.

      Recommendation 4. We recommend that the Office of the Chief Financial Officer revise
      its policy and procedures to ensure that the Financial Management Division (a)
      reconciles property, plant, and equipment records with those of the Overseas
      Management Division, the Office of Foreign Disaster Assistance, and the Office of the
      Chief Information Officer, and researches and resolves discrepancies in a timely manner
      and (b) coordinates with the Overseas Management Division to obtain quarterly disposal
      reports when performing the mission data call and data validation.




3   This is the system that USAID uses to accumulate data on its fleet of vehicles.


                                                                                                 10
USAID's Process for Accounting for Accounts Receivable Is Not
Effective

During our testing of accounts receivable written off during the year, we found that USAID used the
wrong posting model to write off delinquent accounts receivable. Our audit determined that in fiscal
year 2011 USAID's Financial Management Division incorrectly wrote off 27 accounts receivable
valued at approximately $7.3 million by using the wrong posting model-recording a debit to
Allowance for Loss on Accounts Receivable and a credit to Advances & Prepayments. This
occurred because USAID's financial management system provided several posting model options
when initiating accounts receivable write-off transactions, and its Financial Management Division
personnel chose the wrong posting model to process the write-offs. As a result, during fiscal year
2011, USAID understated its FY 2011 Advances & Prepayments balance and overstated
accounts receivable by approximately $7.3 million.

Additionally, we found that USAID does not accrue interest and penalty costs for delinquent
accounts receivable. During our review, we judgmentally selected a sample of 44 outstanding
accounts receivable totaling approximately $9.6 million and found that interest and penalty costs
were not consistently applied against 16 of the 44 delinquent accounts. As a result, USAID
understated accounts receivable on its balance sheet by approximately $176,480. This
understatement could easily have been prevented because USAID's financial accounting
system has the capability to calculate interest. Section 2.1 of USAID's Phoenix Procedure Guide
Version 4.3, "Accounts Receivable," states that Phoenix has a system setting that will
automatically generate a due date for accounts receivable based on the date of entry of the
billing document. The system will calculate interest and penalty charges daily on a 360-day
calendar. However, USAID has opted not to use this functionality

Treasury Financial Manual Supplement S2-09-01 states that the proper transaction to record
the write-off of accounts receivable consists of a debit to Allowance for Loss on Accounts
Receivable and a credit to Accounts Receivable. Also, USAID's ADS 625.3.4.10, Accounts
Receivable and Debt Collection, states that if USAID does not receive payment by the due date,
the receivable becomes delinquent and interest is computed back to the date of the original
demand. Penalty costs must also be accrued and added to the indebtedness as outlined in 22
CFR 213.12. During the course of the audit, the CFO took action to implement the functionality
for applying interest and penalty costs in the Phoenix accounting system. Therefore, we are not
including a recommendation to accrue interest and penalty costs for delinquent accounts
receivable in this report.

   Recommendation 5. We recommend that the Chief Financial Officer develop and
   implement procedures to ensure that the con-ect posting model is used when writing off
   accounts receivable.


USAID's Process for Accounting for Advances Is Not Effective

USAID's process for accounting for pooled advances continues to be problematic. Our review of
advances found that, as of September 30, 2011, 50 obligations recorded on the Department of
Health and Human Services Payments Management System (PMS) Synchronization Report,
valued at approximately $7.2 million, were deobligated twice by USAID. The obligations were
deobligated once by USAID when the funds were removed manually from PMS after the Cash
Management and Payments Division received notification that those grants were completed and
that the grantees would no longer be incurring expenses against those obligations. The same

                                                                                                 11
obligations were deobligated from PMS a second time when the USAID Office of Acquisition and
Assistance recorded a deobligation in the Phoenix accounting system after receiving notification
that the period of performance had expired. This second deobligation took place when the daily
Phoenix outbound interface with PMS occurred. Therefore, the obligations that were manually
removed from PMS were removed a second time and the closed grants were reestablished in
PMS. As a result, the obligations recorded for those grants in PMS were lower than the expenses
that the grantees were supposed to report in their quarterly reports. The grantees were therefore
forced to report expenses to the extent of the obligations available, and not all the expenses that
were incurred could be reported. Therefore, the outstanding advances on the balance sheet were
overstated by $7.2 million

Our tests of advances determined that as of September 30, 2011, 164 advance transactions
totaling $26 million remained outstanding for over 90 days. Because the original advance
payment document needed to perform the final deobligation was not referenced, the advance
liquidation transactions were incorrectly recorded in the Phoenix accounting system. As a result,
the wrong advances totaling $26 million were liquidated. ADS 636.3 states that the Cash
Management and Payments Division is required to ensure that outstanding advances are
reviewed periodically so that advanced funds are not in excess of immediate disbursement
needs.

Statements of Federal Financial Accounting Standards No. 1, paragraph 59, states that advances
should be recorded as assets and subsequently reduced when services are received or expenses
are actually incurred. USAID did not comply with this requirement. The Cash Management and
Payments Division coordinated with the Office of the Chief Information Officer during the course of
the audit and implemented an enhancement to the Phoenix accounting system that would omit
closed Letter of Credit transactions from the outbound interface process. This change to the
Phoenix accounting system was implemented on October 19, 2011. Because USAID's CFO has
taken action to ensure that the final deobligations of advances from the PMS interface are
recorded correctly in USAID's accounting system, we are not including a recommendation in
this report.

    Recommendation 6.  We recommend that the Office of the Chief Financial Officer develop
    and implement procedures to liquidate all outstanding advances in a timely manner.




Intragovernmental Transactions Remain Unreconciled                               (Repeat Finding)
USAID continues to have a large number of intragovernmental transactions that have not been
reconciled. As of September 30, 2011, the U.S. Treasury (Treasury) reported a net difference
of $3.5 billion in intragovernmental transactions between USAID and other federal agencies. Of
this amount, USAID was required to reconcile and confirm $ 340 million in intragovernmental
activity in accordance with OMB Circular A-136, Financial Reporting Requirements, and
Treasury's Federal Intragovernmental Transactions Accounting Policies Guide, Section 17.1.
These differences, which Treasury reports each quarter in the Material Differences/Status of
Disposition Certification Report,4 represent differences identified by Treasury between USAID's
records and those of its federal trading partners that exceed a $250 million assurance threshold
4 The Material Differences/Status of Disposition Certification Report allows agencies to identify
differences with trading partners by reciprocal categories that are greater than or equal to a respective
reconciliation assurance level.


                                                                                                      12
that is established by Treasury. In the fourth quarter report on material differences, Treasury
reported only one difference of $340 million that was greater than the $250 million threshold.
Although USAID has increased its efforts to resolve unreconciled amounts, significant
differences still exist, including the $340 million that should have been reconciled with one
federal agency. These differences occurred because USAID's trading partners recorded the
transactions in different accounting periods or used different accounting methodologies.

USAID continuously researches intragovemmental activity to improve USAID's reconciliation
process and eliminate the differences. Although some timing differences may ultimately be
resolved, differences caused by accounting errors or different accounting methodologies require
a special effort by USAID and its trading partners for timely resolution. The Federal
Intragovemmental Transactions Accounting Policies Guide suggests that agencies work
together to estimate accruals and to record corresponding entries in each set of records to
ensure that they agree and that long-term accounting policy differences can be eliminated.

Although approximately $3.2 billion of the $3.5 billion in net differences reported between
USAID and the Treasury general fund does not have to be reconciled, Treasury does suggest
that federal agencies confirm that these differences represent general fund activities. USAID is
making an effort to confirm the general fund activity and plans to continue its efforts to
collaborate with Treasury to research and reconcile these differences.

We identified similar conditions related to USAID's reconciliation of intragovemmental
transactions in a previous auditS and recognize that this process requires continuing
coordination with other federal agencies. Therefore,we are not making a new recommendation,
but we will continue to monitor USAID's progress in reducing intragovemmental differences in
future audits.

USAID management's written response to the material weakness and significant deficiencies
identified in our audit has not been subjected to the audit procedures applied in the audit of the
financial statements, and accordingly, we express no opinion on it.

This report is intended solely for the information and use of those charged with govemance at
USAID (the USAID Administrator, Deputy Administrator, Assistant Administrator for
Management, and Chief Financial Officer) and others within USAID, as well as for OMB and
Congress, and is not intended to be and should not be used by anyone other than these
specified parties. However, this report is a matter of public record, and its distribution is not
limited.




USAID, Office of Inspector General
November 15, 2011




5 "Audit of USAIO's Financial Statements for Fiscal Years 2010 and 2009," November 12, 2010, p. 9,
http://www.usaid.gov/oig/public/fy11rpts/0-OOO-11-001-c.pdf.

                                                                                               13
REPORT ON COMPLIANCE
WITH LAWS AND
REGULATIONS
We have audited the consolidated balance sheets of USAID as of September 30, 2011, and
2010. We have also audited the consolidated statements of net cost, consolidated statements
of changes in net position, and combined statements of budgetary resources for the fiscal years
ended September 30, 2011, and 2010, and have issued our report thereon. We conducted the
audits in accordance with auditing standards generally accepted in the United States; generally
accepted Government Auditing Standards issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended.

The management of USAID is responsible for complying with laws and regulations applicable to
USAID. As part of obtaining reasonable assurance about whether USAID's financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material effect on
the determination of financial statement amounts and with certain other laws and regulations
specified in OMB Bulletin 07--04, including the requirements referred to in the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these
provisions and did not test compliance with all laws and regulations applicable to USAID.

Our tests did not disclose instances of noncompliance considered to be reportable under
Government Auditing Standards.     Our objective was not to provide an opinion on overall
compliance with laws and regulations, and accordingly, we do not express such an opinion.

OMB Circular A-123

OMB Circular A-123, Management's Responsibility for Internal Control, implements the
requirements of Federal Managers' Financial Integrity Act of 1982 (FMFIA). Appendix A of
OMB Circular A-123 contains a process that management should implement to assess and
improve internal controls over financial reporting. The assessment process should provide
management with the information needed to support a separate assertion on the effectiveness
of the internal controls over financial reporting, as a subset of the overall FMFIA report.

In 2011, USAID monitored key business processes and followed up on recommendations made
in prior years. For FY 2011, USAID, in its Management Assurance Report to the President and
Congress, identified and reported one material weakness related to its process for reconciling
Fund Balance with the U.S. Treasury and the following significant deficiencies:

•   Loan Receivable Reconciliation
•   Unliquidated Obligations
•   Inaccurate Salary and Entitlement Payments
•   Inconsistent FMFIA Certification Process



                                                                                              14
Federal Financial Management Improvement Act of 1996

Under FFMIA, we are required to report on whether USAID's financial management systems
substantially comply with federal financial management systems requirements, applicable
federal accounting standards, and the U.S. Government Standard General Ledger (USSGL) at
the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements. During our tests, nothing came to our attention to cause us to
believe that USAID did not substantially comply with the federal financial management systems
requirements, federal accounting standards, or USSGL accounting at the transaction level. In
our Report on Internal Control, we identified the following areas for improvement in several
financial system processes, not affecting substantial compliance:

•   Reconciliation of Fund Balance With the U.S. Treasury

•   Reconciliation of Loans Receivable

•   Accounting for Unliquidated Obligations

•   Accounting for Property, Plant, and Equipment

•   Accounting for Accounts Receivable

•   Accounting for Advances

•   Reconciliation of Intragovernmental Transactions

This report is intended solely for the information and use of those charged with governance at
USAID (the USAID Administrator, Deputy Administrator, Assistant Administrator for
Management, and Chief Financial Officer) and others within USAID, as well as for OMB and
Congress, and is not intended to be and should not be used by anyone other than these
specified parties. However, this report is a matter of public record and its distribution is not
limited.




USAID, Office of Inspector General
November 15, 2011




                                                                                             15
EVALUATION OF MANAGEMENT
COMMENTS
We have received USAID's management comments on the findings and recommendations
included in our draft report. We have evaluated USAID's management comments on the
recommendations and have reached management decisions on all of the recommendations.
The following is a summary of USAID's management comments and our evaluation of them.

USAID management agreed to implement recommendation 1 and stated that the Office of the
Chief Financial Officer will continue to focus on strengthening its reconciliation procedures to
identify the transactions that caused the differences with the Fund Balance with Treasury
(FBWT). USAID management also noted that strengthening their reconciliation processes to
significantly reduce differences will require the web-based Cash Reconciliation Tool (CART) as
a means and, as noted by the OIG, the Agency will work to accelerate implementation and
stabilization of the web-based CART. To address legacy differences, USAID and the OIG will
reach agreement with Treasury on an acceptable approach to eliminate old FBWT differences
and to resolve very old suspense items. USAID will clear current period suspense transactions
within 60 days. The target completion date is February 29, 2012. We agree with the
management decision on this recommendation and will review USAID's implementation of this
recommendation during our FY 2012 GMRA audit.

USAID management agreed to implement recommendation 2 and noted that USAID will
continue to work with the loan service provider to investigate and resolve differences between
the Phoenix accounting system and balances maintained by their loan service provider. USAID
management also stated that their progress in reconciling loan restructurings was limited in FY
2011 because of large turnover of staff in the Credit Program office. Management estimates that
it will take 2Y2 more years to complete past debt restructuring reconciliations. The target
completion date is June 30, 2014. We agree with the management decision on this
recommendation and will review USAID's progress on the implementation of this
recommendation during our FY 2012 GMRA audit.

USAID management agreed to implement recommendation 3 and stated that USAID will
continue to identify and reduce the number of current contracts and obligations in closeout, and
will look into the use of additional sources to expedite reviews. USAID management also noted
that the Office of CFO will continue to target specific areas for batched processing, including
low-dollar, miscellaneous, and travel-related obligations. USAID management committed to
evaluating the use and functionality of requiring performance dates on all future procurement
contracts. The target completion date is September 30,2014. We agree with the management
decision on this recommendation and will review USAID's progress on the implementation of
this recommendation during our FY 2012 GMRA audit.

USAID management agreed to implement recommendation 4, stating that USAID will revise its
procedures. USAID management also noted that during FY 2011 the Central Accounting and
Reporting Division reconciled its records directly with the various missions.       USAID
management agreed to (a) institute additional processes to improve the reconciliation and
coordination among the Overseas Management Division, the Office of Foreign Disaster


                                                                                             16
Assistance, and the Office of the Chief Information Officer to resolve reporting differences; and
will (b) coordinate with the Overseas Management Division to obtain quarterly disposal reports
when performing the mission data call and data validation. The target completion date is June
30, 2012. We agree with the management decision on this recommendation and will review
USAID's implementation of this recommendation during our FY 2012 GMRA audit.

USAID management agreed to implement recommendation 5 and stated that the Office of the
CFO will review and revise desktop procedures as necessary and provide training to system
accountants on posting receivable write-off transactions correctly. USAID management also
agreed to issue a memorandum to all users to reiterate the proper procedures when posting
write-offs. The target completion date is September 30, 2012. We agree with the management
decision on this recommendation and will review USAID's implementation of this
recommendation during our FY 2012 GMRA audit.

USAID management agreed to implement recommendation 6 and stated that the Office of the
CFO will (a) review and update advance liquidation procedures as applicable and (b) proactively
monitor and liquidate advances through rigorous cyclical follow-up with Agency vendors to
ensure that they submit their advance liquidation documents on time. USAID management also
reported liquidating over $16 million of the $26 million identified by the OIG as outstanding
advance transactions for FY 2011 and reported that the current outstanding advance balance is
approximately $9.6 million. The target completion date is September 30, 2012. We agree with
the management decision on this recommendation and will review USAID's implementation of
this recommendation during our FY 2012 GMRA audit.

Although we did not include a recommendation for the intragovernmental transaction
reconciliation finding in our report, USAID management committed to continue to coordinate
with other federal agencies to resolve the Intragovernmental differences in a timely manner.
The target completion date is September 30, 2015. We agree with management's proposed .
action and will review USAID's progress on its implementation during our FY 2012 GMRA audit.




                                                                                              17
                                                                                        Appendix I 

                                                                                       Page 1 of 2 



SCOPE AND METH ODOLOGY
USAID management is responsible for (1) preparing the financial statements in accordance with
generally accepted accounting principles; (2) establishing, maintaining, and assessing internal
control to provide reasonable assurance that the broad control objectives of the Federal
Managers' Financial Integrity Act of 1982 (FMFIA) are met; (3) ensuring that USAID's financial
management systems substantially comply with the requirements of the Federal Financial
Management Improvement Act of 1996 (FFMIA); and (4) complying with other applicable laws
and regulations.

The Office of Inspector General (OIG) is responsible for obtaining reasonable assurance about
whether the financial statements are presented fairly, in all material respects, in conformity with
accounting principles generally a cepted in the United States of America. The OIG is also
responsible for: (1) obtaining a sufficient understanding of internal control over financial
reporting and compliance to plan the audit; (2) testing whether USAID's financial management
systems substantially comply with FFMIA requirements; (3) testing compliance with selected
provisions of laws and regulations that have a direct and material effect on the financial
statements and laws for which Office of Management and Budget's (OMB) audit guidance
requires testing; and (4) performing limited procedures with respect to certain other information
appearing in the Agency Financial Report.

To fulfill these responsibilities, OIG:

•	   Examined, on a test basis, evidence supporting the amounts and disclosures in the financial
     statements;

•	   Assessed the accounting principles used and significant estimates made by management;

•	   Evaluated the overall presentation of the financial statements;

•	   Obtained an understanding of internal control related to financial reporting (including
     safeguarding assets) and compliance with laws and regulations, (including execution of
     transactions in accordance with budget authority);

•	   Tested relevant internal controls over financial reporting and compliance, and evaluated the
     design and operating effectiveness of internal controls;

•	   Considered the process for evaluating and reporting on internal control and financial
     management systems under FMFIA; and

•	   Tested USAID's compliance with FFMIA requirements.

We also tested USAID's compliance with selected provisions of the following laws and
regulations:

•	   Anti-Deficiency Act, "July 12, 1870; codified at 31 U.S.C. 1341, 1342, 1349 to 1351, 1511 to
     1519. "




                                                                                                18
                                                                                         Appendix I
                                                                                        Page 2 of 2

•   Improper Payments Information Act of 2002, Public Law 107-300

•   Prompt Payment Act, Public Law 97-177

•   Debt Collection Improvement Act of 1996, Public Law 104-134

•   Federal Credit Reform Act of 1990, Public Law 93-344

•   OMB Circular A-136

•   OMB Circular A-123

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may occur and may not be detected. We also caution that
projecting our evaluation to future periods is subject to the risk that controls may become
inadequate because of changes in conditions, or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

We did not test compliance with all laws and regulations applicable to USAID. We limited our
tests of compliance to those laws and regulations required by OMB audit guidance that we
deemed applicabl,e to the financial statements for the fiscal years ended September 30, 2011,
and 2010. We caution that noncompliance may occur and not be detected by these tests, and
that such testing may not be sufficient for other purposes.

In forming our opinion, we considered potential aggregate errors exceeding $312 million for any
individual statement to be material to the presentation of the overall financial statements.

Federal Financial Management Improvement Act of 1996 (FFMIA)

We assessed whether USAID was substantially compliant with section 803(a) of the FFMIA,
which requires agencies to implement and maintain financial management systems substantially
comply with (1) federal financial management systems requirements, (2) applicable federal
accounting standards, and (3) the United States Government Standard General Ledger
(USSGL) at the transaction level. To perform our review, we conducted assessments, of
USAID's Phoenix financial management systems updates, its posting models effectiveness, and
its budget module postings to the general ledger to determine whether the systems substantially
complied with selected mandatory requirements contained in the Financial Systems Integration
Office, formerly known as the Joint Financial Management Improvement Program,
Acquisition/Financial Systems Interface Requirements dated June 2(>02.          We evaluated
USAID's financial transactions that were recorded in Phoenix to determine if they were
compatible with federal accounting standards and the USSGL at the transaction level, and we
did not observe any exceptions. Therefore, we concluded that our review found no instances of
substantial noncompliance with any of the three FFMIA section 803(a) requirements.




                                                                                                 19
                                                                                    Appendix II 

                                                                                    Page 1 of 4 



MANAGEMENT COMMENTS 



                                                                          November 14, 2011

MEMORANDUM

TO:            AIGIA, Timothy E. Cox

FROM:         MICFO, David D. Ostermeyer lsI

SUBJECT:       Management Response to Draft Independent Auditor's Report on USAID's
               Financial Statements for Fiscal Years 2011 and 2010
               (Report No. 0-000-12-001-C)

Thank you for your draft report on the Audit of USAID's Financial Statements for Fiscal Years
20 1 1 and 20 10 and for the professionalism and dedication exhibited by your staff throughout
this entire process.

Fiscal Year (FY) 2011 was another significant year for federal financial management at USAID.
We are gratified that the USAID Inspector General will issue unqualified opinions on all four
principal financial statements. The acknowledgments of the Agency's improvements in financial
systems and processes throughout the report are greatly appreciated.

Following are our comments and management decisions regarding the findings and proposed
audit recommendations:

Material Wea kness: USAID Does Not Reconcile its Fund Balance with Treasury Account
with the U.S. Treasury a nd Resolve Reconciling Items i n a Timely Manner
(Repeat Finding)


Recommendation No 1: We recommend that the Chief Financial Officer accelerate the
implementation of the web-based CART and perform complete and timely fund balance
reconciliations in accordance with the procedures established by the U.S. Department of the
Treasury and maintain documentation to adequately support all reconciliations performed.

Management Decision: The CFO will continue to focus on strengthening its reconciliation
procedures to identify the transactions that cause the Fund balance with Treasury (FBWT)
differences. Strengthening our reconciliation processes to significantly reduce differences will
require the web-based Cash Reconciliation Tool (CART) as a means and, as noted by OIG, the
Agency will work to accelerate implementation and stabilization of the web-based CART. To
address legacy differences, USAID and OIG will reach agreement with Treasury on an
acceptable approach to eliminate old FBWT differences and to resolve very old suspense items.
We will clear current period suspense transactions within 60 days.



                                                                                             20
                                                                                     Appendix II
                                                                                     Page 2 of 4

Target completion date: February 29, 2012

Significant Deficiency:  USAlD's Pro'cess for Reconciling Loans Receivab le Is Not
Effective and Does Not Resolve Differences in a Timely Ma nner (Repeat Finding)


Recommendation: No. 2: We recommend that the Office of the Chief Financial Officer (a)
develop and implement a plan to complete its reconciliation of loan balances in the Phoenix
accounting system with the balances maintained in the PNC Enterprise Loan System and (b)
ensure that all Enterprise Loan System transactions transmitted to Phoenix via the interface are
properly accounted for and recorded in Phoenix.

Management Decision: USAID will continue to work with the service provider to investigate and
resolve differences between the Phoenix accounting system and balances maintained by our
loan service provider. Our progress in reconciling loan restructurings was limited in FY 2011 due
to large turnover of staff in the Credit Program and we estimate that it will take two and a half
more years to complete past debt restructuring reconciliations.

Target completion date: June 30, 2014

Significant Deficiency: USAlD's Process for Reviewing and Deobligating Unliquidated
Obligations Is Not Effective

Recommendation No. 3: We recommend that the Chief Financial Officer coordinate with the
Office of Acquisition and Assistance and with Bureau Assistant Administrators to (a) initiate
targeted reviews of non-GLAAS obligations and batch obligations for automatic deobligation for
small-dollar obligation balances, travel, operating-expense funded obligations and program
funded obligations that are older than five years; (b) utilize services of independent public
accounting firms to expedite the close out audit process, and (c) ensure obligation officials
include period of performance dates for all procurement type awards.

Management Decision: USAID will continue to identify and reduce the current contract and
obligation closeout, and research the use of additional sources to expedite review. As noted,the
Office of the CFO will also collaborate with the Office of Acquisition and Assistance to evaluate
alternative service providers to expedite the close-out audit process. The Office of CFO will
continue to target specific areas for batched processing, including low-dollar,miscellaneous and
travel-related obligations. We will also evaluate the use and functionality of requiring
performance date on all future procurement contracts.

Target completion date: September 30, 2014

Significant Deficiency:   USAlD's Process for Accounting for and Accurately Reporting
Property, Plant, a nd Equipment Is Not Effective (Repeat Finding)


Recommendation No. 4: We recommend that the Chief Financial Officer revise its policy and
procedures to ensure that the Financial Management Division (a) reconciles property,plant,and
equipment records with those of the Overseas Management Division, the Office of Foreign
Disaster Assistance, and the Office of the Chief Information Officer, and researches and
resolves discrepancies in a timely manner and (b) coordinates with the Overseas Management
Division to obtain quarterly disposal reports when performing the mission data call and data
validation.



                                                                                              21
                                                                                      Appendix II
                                                                                      Page 3 of 4

Management Decision: USAID will evaluate whether policy revisions are required. USAID will
revise its procedures. During FY 2011, the Central Accounting Division reconciled its records
directly with the various missions. USAID will (a) institute additional processes to improve
the reconciliation and coordination between the Overseas Management Division, the Office of
Foreign Disaster Assistance, and the Office of the Chief Information Officer to resolve reporting
differences; and will (b) coordinate with the Overseas Management Division to obtain quarterly
disposal reports when performing the mission data call and data validation.

Target completion date: June 30, 2012

Significant Deficiency :   USAlD's Process for Accounting for Accounts Receivable Is Not
Effective


Recommendation No. 5: We recommend that the Chief Financial Officer develop and
implement procedures to ensure that the correct posting model is used when writing off
accounts receivable.

Management Decision: The Office of the CFO will review and revise desktop procedures as
necessary and provide training to system accountants on posting receivable write-off
transactions correctly. In addition, we will issue a memorandum to all relevant users to reiterate
the proper procedures when posting write-offs.

Target completion date: September 30, 2012

Significant Deficiency: USAlD's Process for Accounting for Advances Is Not Effective

Recommendation NO. 6: We recommend that the Office of the Chief Financial Officer develop
and implement procedures to liquidate all outstanding advances in a timely manner.

Management Decision: The Office of the CFO will review and update advance liquidation
procedures where applicable; as well as, proactively monitor and liquidate advances through
rigorous cyclical follow-up with Agency vendors to ensure that they submit their advance
liquidation documents timely.

USAID liquidated over $16 million of the $26 million identified by the OIG as outstanding
advance transactions for FY2011. Currently, the outstanding advance balance is approximately
$9.6 million.

Target completion date: September 30, 2012

Significant Deficiency:    Intragovernmental Transactions Remain Unreconciled (Repeat
Finding)


USAID will continue to coordinate with other federal agencies to resolve the Intragovemmental
differences in a timely manner.

Target completion date: September 30,2015




                                                                                               22
                                                                                 Appendix II
                                                                                 Page 4 of 4

In closing, I would like to confirm USAIO's commitment to continual improvement in financial
management. I intend to ensure that all necessary steps are taken to institutionalize strong
financial management performance throughout the Agency. We will continue the improvements
made in the last few years as we work hard to develop and implement long-term solutions to
address the issues cited in your report.




                                                                                         23
                                                                                     Appendix III 

                                                                                     Page 1 of 2 





STATUS OF PRIOR YEARS
FINDINGS AND
RECOMMENDATIONS
OMB Circular A-50 states that a management decision on audit recommendations shall be
made within a maximum of 6 months after a final report is issued. Corrective action should
proceed as rapidly as possible.

Status of 201 0 Findings and Recommendations

Recommendation No 1: We recommend that the Chief Financial Officer (a) provide changes in
its crosswalk to the Department of Health and Human Services in a timely manner to ensure
that the Department of Health and Human Services charges all third-party transactions to
appropriate appropriations; and (b) research and resolve all suspense items within the time
stipulated by Treasury.

Status: This recommendation is still pending final action. The Chief Financial Officer noted that
the auditor's acknowledged that progress has been made in the reconciliation of current
transactions with the implementation of the fund balance reconciliation tool. The CFO will focus
on eliminating legacy differences, correcting the Health and Human Services crosswalk, . and
clearing items from the suspense accounts within 60 days. Target completion date: February
29, 2012

Recommendation: No. 2: We recommend that the Chief Financial Officer (a) intensify efforts to
reconcile loan balances with Midland's ELS; (b) ensure that all transactions transmitted to
Phoenix via the interface are properly posted to Phoenix; and (c) complete debt restructuring
reconciliations within 90 days after Midland records debt restructurings in ELS.

Status: This recommendation is still pending final action. The Chief Financial Officer agreed to
implement the recommendation and will continue to work with the service provider to investigate
and resolve differences. The CFO will complete new debt restructuring reconciliations within
the timeframe described above by training additional personnel, but it will take an estimated 2%
more years to complete past debt restructuring reconciliations. Target completion date: June
30, 2014

Recommendation NO. 3: We recommend that the Chief Financial Officer develop and
implement procedures to ensure that: (a) adequate supporting documentation is maintained for
all purchases, transfers, and disposals of property, plant and equipment; (b) communication
between USAID's Overseas Management Division and Financial Management Division is
maintained to ensure that all the equipment are reconciled annually; and (c) disposed property
and equipment is removed from its financial records in a timely manner.

Status: This recommendation is still pend ing fi nal action . The Chief Financial Officer
agreed to implement the recommendation. The CFO will institute processes to improve the



                                                                                              24
                                                                                    Appendix III
                                                                                    Page 2 of 2

internal control procedures regarding property, plant and equipment. Target completion date:
June 30, 201 2



Status of 2009 Findings and Recommendations

Recommendation No. 1: We recommend that USAID's Chief Financial Officer intensify efforts
to reconcile current monthly transactions with Treasury and identify, track, and resolve legacy
differences recorded in the suspense accounts and in other appropriation accounts.

Status: This recommendation is still pending final action. The Chief Financial Officer noted that
the auditor's acknowledged that progress has been made in the reconciliation of current
transactions with the implementation of the fund balance reconciliation tool. The CFO will focus
on eliminating legacy differences, correcting the Health and Human Services crosswalk, and
clearing items from the suspense accounts within 60 days. Target completion date: February
29, 2012.

Status of 2005 Findings and Recommendations

In the FY 2005 audit report, OIG recommended that USAID's Chief Financial Officer direct the
Financial Management Office to conduct quarterly intragovemmental reconciliations of activity
and balances with its trading partners in accordance with the requirements of the Federal
Intragovemmental Transactions Accounting Policies Guide, issued by the Department of
Treasury's Financial Management Service.

Status: The IG has made no recommendations in the last few years. However, USAID is
continuously researching intragovemmental activity and developing new tools in order to
improve its reconciliation process and eliminate the differences.




                                                                                              25
                                                          C O N S O L I DAT E D BALA N C E S H E E T
                                                         ,A, ...,   Ilr St :) !1 ' r   l{r   C ;C) r' l ' / : ,r/ /Cf   I II ' i !.r),, \ :11   ,,!

                                                                                                                                                       201 1               20 1 0
 ASSETS:
     Intragovernmental:
         Fund Balance with Treasury (Notes 2 and 1 5)                                                                                             $ 27,758,936        $ 27,22 1 ,485
         Accounts Receivable (Note 3)                                                                                                                          220               220
         Other Assets (Note 4)                                                                                                                            96,2 1 9          67,653
    Total lntragovernmental                                                                                                                           27,855,375          27,289,358

    Cash and Other Monetary Assets (Note 5)                                                                                                              306,635             265,375
    Accounts Receivable, Net (Note 3)                                                                                                                     94,467             121,101
    Direct Loans and Loan Guarantees, Net (Note 6)                                                                                                     3,392,381           3,472,065
    Inventory and Related Property, Net (Note 7)                                                                                                          43,679               1 6,394
    General Property, Plant, and Equipment, Net (Notes 8 and 9)                                                                                           74,102             1 1 7,056
    Advances (Note 4)                                                                                                                                    549, 169            789, 1 2 1
    Total Assets                                                                                                                                 $ 32,3 1 5,808       $ 32,070,470

 LIABILITIES:
    Intragovernmental:
        Accounts Payable (Notes 10 and 1 5)                                                                                                      $         1 5,597    $       37,773
        Debt (Note I I )                                                                                                                                 478,380             478,280
        liability for Capital Transfers to the General Fund of the Treasury (Note I I )                                                                3,1 98,706          3,202,384
        Other liabilities (Note 12)                                                                                                                    1 ,445,425            667,7 1 3
    Total Intragovernmental                                                                                                                            5,1 38, 1 08        4,386, 1 50

    Accounts Payable (Note 10)                                                                                                                         1 ,734,1 58         2,075,047
    Loan Guarantee liability (Note 6)                                                                                                                  1 ,694, 1 95        2,265,59 1
    Federal Employee and Veteran's 8enefits (Note 1 3)                                                                                                    22, 1 75            26,035
    Other liabilities (Notes 10, 1 2. and 1 3)                                                                                                           495,857             435.789
    Total Liabilities                                                                                                                                 9,084,493           9, 1 88,6 1 2


    Commitments and Contingencies (Note 14)

 NET POSITION:
    Unexpended Appropriations                                                                                                                         2 1 ,202,085        2 1 . 1 08.7 1 2
    Cumulative Results of Operations                                                                                                                   2,029.230            1 .773.146
    Total Net Position (Note 1 5)                                                                                                                $ 23,23 1 ,3 1 5     $ 22,88 1 ,858

 Total Liabilities and Net Position                                                                                                              $ 32,3 1 5,808       $ 32,070,470

The accompanying notes are an integral part of these statements.




                                                                                                                                                                   26
                                                                                                             USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
                                           C O N S O L I DAT E D STAT E M E N T O F N E T C O S T
                                                  } u' r l i ( Y,   (, r ,   L ',d,   'I   \' :   i'   : r l /J   r   fO. /0 1' I   :Ir"   ,UIG
                                                                                      I '" ' I t )[/\ , i l t d !

 OBJECTIVES                                                                                                                                        20 1 1              2010
 Peace and Security:
    Gross Costs                                                                                                                               $     CU I .773      $   1 .079.389
     Less: Earned Revenue                                                                                                                              (4.n9)              (6.895)
    Net Program Costs                                                                                                                               937.044            1 .072,494

 Governing Justly and Democratically:
    Gross Costs                                                                                                                                    1 .844.205          1 .792.493
    Less: Earned Revenue                                                                                                                               (9.379)           (24.286)
    Net Program Costs                                                                                                                              1 .834.826          1 .768.207

 Investing In People:
    Gross Costs                                                                                                                                   3.266.444            3. 1 62.339
    Less: Earned Revenue                                                                                                                           (203.36 1 )          (3 1 3.925)
    Net Program Costs                                                                                                                             3.063.083            2.848.4 1 4

 Economic Growth:
    Gross Costs                                                                                                                                   4. 1 37. 1 6 1       2.9 1 3.573
    Less: Earned Revenue                                                                                                                           (887.933)            (203.394)
    Net Program Costs                                                                                                                             3.249.228            2.7 10. 1 79

 Humanitarian Assistance:
    Gross Costs                                                                                                                                    1 .639.786          1 .637.038
    Less: Earned Revenue                                                                                                                               (8. 1 46)           (7.95 1 )
    Net Program Costs                                                                                                                              1 .63 1 .640        1 .629.087

 Operating Unit Management:
    Gross Costs                                                                                                                                     530.837              38 1 .36 1
    Less: Earned Revenue                                                                                                                               (2.965)             (3.446)
    Net Program Costs                                                                                                                               527.8n               377.9 1 5

 Net Cost of Operation. (Notel 16 and 1 7)                                                                                                    $ I I ,143,693       $ 1 0,406,196

The accompanying notes are an integral part of these statements.




                                                                                                                                                                                      27
USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
                                 C O N S O L I DAT E D STAT E M E N T O F C H A N G E S I N N ET POS I T I O N
                                                     " Jr l i d Yr   (jr "   L"d( d 5f'l'it 1'11/)( ' ? . ) O } I (Jr:d 20 1' 0
                                                                                 , / " 7/rfJd'\UIl ,I'll

                                                                                                                                    20 1 1                    2010
                                                                                                                        Consolidated Total           Consolidated Total

 Cumulative Results of Operations:
     Beginning 8alances                                                                                                       $      1 ,773,146         $      1 ,005,74 1
     Beginning Balances, as Adjusted                                                                                                 1 ,773, 146               1 ,005,74 1

 Budgetary Financing Sources:
        Appropriations Used                                                                                                        1 1 ,36 1 ,60 1           1 1 ,080,790
        Donations and Forfeitures of Cash and Cash Equivalents                                                                         122,076                    83,066
        Transfers-inlout Without Reimbursement                                                                                                                           10
 Other Financing Sources (Non-Exchange):
    Imputed Financing                                                                                                                    1 6, 1 00                  9,835
    Total Financing Sources                                                                                                        1 1 ,499,777              1 1 , 1 73,70 1
    Net Cost of Operations                                                                                                        ( 1 1 ,243,693)           ( I 0,406,296)
    Net Change                                                                                                                        256,084                   767,405

 Cumulative Results of Operations                                                                                                   2,029,230                 1 ,773, 1 46

 Unexpended Appropriations:
    Beginning Balance                                                                                                             2 1 , 1 08,7 1 2           1 6,464, 1 24
    Beginning Balance, as Adjusted                                                                                                2 1 , 1 08,7 1 2           1 6,464, 1 24

 Budgetary Financing Sources:
        Appropriations Received                                                                                                    1 1 ,737,457              1 5,786,352
        Appropriations Transferred in/out                                                                                                (8 906)
                                                                                                                                             ,                    94,900
        Other Adjustments                                                                                                            (273,577)                 ( 1 55,874)
        Appropriations Used                                                                                                       ( 1 1 ,361,601)           ( 1 1 ,080,790)
        Total Budgetary Financing Sources                                                                                               93,373                4,644,588
    Total Unexpended Appropriations                                                                                               2 1 ,202,085              2 1 , 1 08,7 1 2
 Net Position                                                                                                                $ 23,23 1 ,3 1 5           $ 22,88 1 ,858


The accompanying notes are an integral part of these statements.




                                                                                                                                                                               28
                                                                                                  USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
                                      C O M B I N E D STAT E M E NT O F B U D G ETA RY R ES O U R C E S
                                                 1 (l r !/I ' Y!   1 ' '''   Lt:dt>(I ' I)f{ ' l , I ' t I j{j L (j ,f I (jlld 2. :J f C
                                                                                   /111 'f {Jl I >llf,d
                                                                                                 '      ,

                                                                                                                 20 1 1                                           20 1 0
                                                                                                                                                               (Restated)
                                                                                                                    Non-Budgetary                                     Non-Budgetary
                                                                                         Budgetary                  Credit Reform                 Budgetary           Credit Reform
Budgetary Resources:
   Unobligated Balance. Brought Forward. October I                                      $      6.897.56 1             $     2.384.58 1           $    5.360.402       $     1 .643.447
   Changes to Beginning Balance Due to Adjustment from OM8                                        F·7 1 8!                     Q.592!
   Unobligated Balance. Brought Forward. as Adjusted                                           6,889.843                    2,38 1 ,989               5.360.402             1 .643.447
   Recoveries of PriorYear Unpaid Obligations                                                  2,046,388                             310                676.857
   BudgetAuthority:
      Appropriations                                                                         1 1 .874.71 8                                           1 5.855.309
      BorrowingAuthority (Note I I)                                                                                                    96                                         900
      Spending Authority from Offsetting Collections:
          Earned:
              Collected                                                                          748.476                       28 1 . 1 33              706. 1 08            800.209
              Change in Receivables from Federal Sources                                               (23 1 )                                              ( 1 74)
          Change i n Unfilled Customer Orders:
              Unfilled Customer Orders With Advance                                              2 1 7.836                                              460.853
              Without Advance from Federal Sources                                                   9,7 18                                               (2,633)
      Subtotal                                                                               1 2.850,5 1 7                     281 .229              1 7.0 1 9.463           80 1 . 1 09
   Nonexpenditure Transfers. Net, Anticipated and Actual                                            1 1 ,557                               (7)         ( 1 09.472)                 (54)
   Permanently Not Available                                                                    (669.907)                                              (434.727)
Total Budgetary Resources                                                               $ 2 1 , 1 28,398             $ 2,663,521                 $ 22,5 1 2,52]       $ 2,444,502

Status of Budgetary Resources:
   Obligations Incurred (Note 1 8):
       Direct                                                                           $ 1 3.057.05 1               $         242, 1 56         $ 1 5.43 1 .92 1     $        59.92 1
       Reimbursable                                                                               1 95.90 1                                             1 83.04 1
          Subtotal                                                                           1 3.252.952                       242, 1 56             1 5.6 14.962              59.92 1
   Unobligated Balance:
      Apportioned (Note 2)                                                                     7.265.534                       3 1 0,302              6.0 1 3.474              30,939
      Subtotal                                                                                 7.265.534                       3 1 0,302              6.0 1 3.474              30.939
   Unobligated Balance NotAvaiiable (Note 2)                                                     609.91 2                   2. 1 1 1 ,063               884.087            2.353.642
Total Status of Budgetary Resources (Note 18)                                           $ 2 1 ,1 28,398              $ 2,663,52 1                $ 22,5 1 2,52]       $ 2,444,5 02

                                                                                                                                                                      (continued on next page)




USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION                                                                                                                            29
                              C O M B I N E D STAT E M E N T O F B U DG ETA RY R ES O U R C ES (contin ued)
                                                       fd t :1,(' Yel   I t,   frJ J( d )Crtl o d'i l ?L) } () I I 11/'.( ) (j / ()
                                                                                     r I' l Id}) ,"u'P I.... J

                                                                                                                 20 1 1                                     20 1 0
                                                                                                                                                         (Restated)
                                                                                                                    Non-Budgetary                                Non-Budgetary
                                                                                           Budgetary                Credit Reform         Budgetary              Credit Reform

 Change In Obligated Balance:
    Obligated Balance. Net
        Unpaid Obligations. Brought Forward. October I                                    $ 1 7.924.6 1 1            $       (2.75 1 )    $    1 4.422.096       $        (640)
       Changes to B nning Balance Due to Adjustment from OMB                                           7.7 18                 2.592
       Unobligated Balance. Brought Forward. as Adjusted                                       17.932.329                       ( 1 59)        1 4.422.096                (640)
       Less: Uncollected Customer Paymenu from
            Federal Sources. Brought Forward. October I                                             (24.908)                      34               (27.7 1 4)               35
        Total Unpaid Obligated Balance. Net (Note 18)                                          1 7.907.421                      ( 1 25)        1 4.394.382                (605)
    Obligations Incurred. Net (+/-)                                                            1 3.252.952                 242. 1 56           1 5.6 14.962             59.92 1
    Less: Gross Outlays                                                                      ( I 1 .633.785)              (24 1 .968)         ( I 1 .435.590)          (62.033)
    Less: Recoveries of Prior Year Unpaid Obligations. Actual                                  (2.046.388)                      (3 1 0)          (676.857)
    Change in Uncollected Customer Paymenu from Federal Sources (+/-)                                 (9.486)                                        2.806
    Obligated Balance. Net, End of Period
        Unpaid Obligations                                                                     1 7.505. 109                     (282)          1 7.924.61 I             (2.75 1 )
        Less: Uncollected Customer Paymenu from Federai Sources                                     (34.395)                      35               (24.908)                 34
        Total. Unpaid Obligated Balance. Net, End of Period                               $ 1 7.470.7 1 4            $          (247)     $    1 7.899.703       $      (2.7 1 7)

 Net Outlays:
    Gross Outlays                                                                              1 1 .633.785                24 1 .968           1 1 ,435.590             62.033
    Less: Offsetting Collections (Note 18)                                                        (966.3 12)              (28 1 . 1 33)        ( 1 . 1 66.959)        (800.209)
    Less: Distributed Offsetting Receipu (Note 18 and Note 20)                                    (3n,s59)                                         (96.395)
 Net Outlays                                                                             $ 1 0,289,6 1 4             $    (39, 1 65)      $ 1 0, 1 72,236        $   (738, 1 76)


The accompanying notes are an integral part of these statemenu.




                                                                                                                                                                               30
                                                                                                        USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
NOTE I . S U M MARY OF S I G N I F I CANT ACCOU NTI NG POLI C I ES


A. BASIS OF PRESENTATION                     American Recovery and                        This account provides funds for a program
                                             Reinvestment Act                             of assistance to the independent states that
The accompanying principal financial                                                      emerged from the former Soviet Union.
statements report USAID's financial          Recovery Act funds are for informa­          These funds support the U.S. foreign
position and results of operations.          tion technology security and upgrades        policy goals of consolidating improved
They have been prepared using USAID's        to support mission-critical operations.      U.S. security; building a lasting partner­
books and records in accordance with         Due to Agency IT priorities and to           ship with the New Independent States; and
Agency accounting policies, the most         maximize job creation with the Recovery      providing access to each other's markets,
significant of which are summarized in       Act funds, USAID determined that             resources, and expertise.
this note. The statements are presented in   the funding should be dedicated to
accordance with the guidance and require­    the Global Acquisition and Assistance
ments of the Office of Management and        System (GLAAS) project.                      Civilian Stabilization Initiative

Budget (OMB) Circular A-1 36,    Financial
                                                                                          This fund provides support for the
Reporting Requirements.
                                             Programs                                     necessary expenses needed to establish,

USAID accounting policies follow                                                          support, maintain, mobilize, and deploy
                                             The statements present the financial         a civilian response corps in coordination
generally accepted accounting principles
                                             activity of various programs and accounts    with the USAID. This fund is also used
for the Federal government, as established
                                             managed by USAID. The programs               for related reconstruction and stabiliza­
by the Federal Accounting Standards
                                             include Assistance for Europe, Eurasia,      tion assistance to prevent or respond to
Advisory Board (FASAB). The FASAB
                                             and Central Asia; Civilian Stabilization     conflict or civil strife in foreign countries
has been recognized by the American
                                             Initiative; Capital Investment Fund;         or regions, or to enable transition from
Institute of Certified Public Accoun­
                                             Economic Support Fund; Development           such strife.
tants (AICPA) as the official accounting
                                             Assistance; International Disaster
standard setting authority for the Federal
                                             Assistance; Global Health and Child
government. These standards have been
                                             Survival; Complex Crisis Fund; Transition    Capital Investment Fund
agreed to, and published by the Director
                                             Initiatives; and Direct and Guaranteed
of the OMB, the Secretary of the Treasury,                                                This fund provides for the necessary
                                             Loan Programs. This classification is
and the Comptroller General.                                                              expenses for overseas construction and
                                             consistent with the Budget of the United
                                                                                          related costs, and for the procurement
                                             States.
                                                                                          and enhancement of information tech­
B. REPORTING ENTITY                                                                       nology and related capital investments.
                                             Assistance for Europe. Eurasia.              Specifically, this fund provides assistance
Established in 1 96 1 by President John
                                             and Central Asia                             in supporting the GLAAS system.
F. Kennedy, USAID is the independent
U.S. Government agency that provides         Funds appropriated under this heading are
economic development and humanitarian        considered to be economic assistance under
assistance to advance United States          the Foreign Assistance Act of 1961.
economic and political interests overseas.




USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION                                                                     31
Economic Support Fund                          rates; to reduce HN transmission and the         •	   Urban and Environmental
                                               impact of the HNIAIDS pandemic in                     Program
The Economic Support Fund (ESF)                developing countries; to reduce the threat            The Urban and Environmental (UE)
supports U. S. foreign policy objectives by    of infectious diseases of major public health         Program, formerly the Housing
providing economic assistance to allies and    importance such as polio, and malaria; and            Guarantee Program, extends guaran­
countries in transition to democracy.          to expand access to quality basic education           ties to U.S. private investors who make
Programs funded through this account           for girls and women.                                  loans to developing countries to assist
promote stability and u.S. security
                                                                                                     them in formulating and executing
interests in strategic regions of the world.
                                                                                                     sound housing and community devel­
                                               Complex Crisis Fund
                                                                                                     opment policies that meet the needs
Development Assistance                         This fund provides for necessary expenses             of lower income groups.
                                               to carry out the provisions of the Foreign
This program provides economic resources                                                        •	   Micro and Small Enterprise
                                               Assistance Act of 1 961 to enable USAID
to developing countries with the aim of                                                              Development Program
                                               to support programs and activities to
bringing the benefits of development to        prevent or respond to emerging or                     The Micro and Small Enterprise Devel­
the poor. The program promotes broad­          unforeseen complex crises overseas.                   opment (MSED) Program supports
based, self-sustaining economic growth,                                                              private sector activities in developing
opportunity, and supports initiatives                                                                countries by providing direct loans and
intended to stabilize population growth,       Transition Initiatives                                loan guarantees to support local micro
protect the environment and foster                                                                   and small enterprises. Although the
increased democratic participation in          This fund provides for humanitarian
                                                                                                     MSED program is still active, the bulk
developing countries. The program is           programs that provide post-conflict
                                                                                                     of USAID's new loan guarantee activity
concentrated in those areas in which the       assistance to victims of both natural
                                                                                                     is handled through the Development
United States has special expertise and        and man-made disasters. This program
                                                                                                     Credit Authority (DCA) Program.
which promise the greatest opportunity         supports U.S. foreign policy objectives by
                                               helping local partners advance peace and         •	   Israel Loan Guarantee Program
for the poor to better their lives.
                                               democracy in priority countries in crisis.            Congress authorized the Israel Loan
                                               Seizing critical windows of opportunity, the          Guarantee Program in Section 226 of
International Disaster Assistance              Office ofTransition Initiatives (OTI) works           the Foreign Assistance Act to support
                                               on the ground to provide fast, flexible,              the costs for immigrants resettling to
Funds for the International Disaster           short-term assistance targeted at key                 Israel from the former Soviet Union,
Assistance Program provide relief,             political transition and stabilization needs.         Ethiopia, and other countries. Under
rehabilitation, and reconstruction
                                                                                                     this program, the U.S. Government
assistance to foreign countries struck
                                                                                                     guaranteed the repayment of up to
by disasters such as famines, floods,          Direct and Guaranteed Loans
                                                                                                     $ 1 0 billion in loans from commercial
hurricanes and earthquakes. The program
                                               •	   Direct Loan Program                              sources. Borrowing was completed
also provides assistance in disaster
                                                    These loans are authorized under                 under the program during FY 1 999,
preparedness, prevention and mitigation;
                                                    the Foreign Assistance Acts, various             with approximately $9.2 billion being
providing emergency commodities and
                                                    predecessor agency programs, and other           guaranteed, ofwhich $7.5 billion is
services for immediate healthcare and
                                                    foreign assistance legislation. Direct           currently outstanding. Guarantees
nutrition. Additionally, this fund supports
                                                    Loans are issued in both U.S. dollars and        were made by USAID on behalf of
the capability to provide timely emergency
                                                    the currency of the borrower. Foreign            the U.S Government.
response to disasters worldwide.
                                                    currency loans made "with maintenance
                                                                                                     In FY 2003, Congress authorized a
                                                    of value" place the risk of currency
                                                                                                     second Israeli Loan Guarantee Program
Global Health and Child Survival                    devaluation on the borrower, and are
                                                                                                     of up to $9.0 billion to support Israel's
                                                    recorded in equivalent U.S. dollars.
This fund provides economic resources to                                                             comprehensive economic program
                                                    Loans made "without maintenance of
developing countries to support programs to                                                          to overcome economic difficulties
                                                    value" place the risk of devaluation on
improve infant and child nutrition, with the                                                         and create conditions for higher and
                                                    the U.S. Government, and are recorded
aim of reducing infant and child mortality                                                           sustainable growth. $4.1 billion has
                                                    in the foreign currency of the borrower.



                                                                                                                                        32
                                                                          USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
     been borrowed under this program,          General fund appropriations and the            have been prepared on an accrual basis.
     of which the entire $4. 1 billion is       Special fund are used to record financial      The Statement of Budgetary Resources
     currently outstanding.                     transactions under Congressional appro­        has been prepared in accordance with
                                                priations or other authorization to spend      budgetary accounting rules.
•	   Development Credit Authority               general revenue.
     The first obligations for USAID's
     Development Credit Authority (DCA)         Revolving funds are established by law to      D. BUDGETS AND BUDGETARY
     were made in FY 1 999. The DCA             finance a continuing cycle of operations,      ACCOUNTING
     allows missions and other offices to use   with receipts derived from such opera­
                                                                                               The components of USAID's budgetary
     loans and loan guarantees to achieve       tions usually available in their entirety
                                                                                               resources include current budgetary
     their development objectives when          for use by the fund without further
                                                                                               authority (that is, appropriations and
     it can be shown that (1) the project       action by Congress.
                                                                                               borrowing authority) and unobligated
     generates enough revenue to cover the
                                                                                               balances remaining from multi-year and
     debt service including USAID fees,         Trust funds are credited with receipts
                                                                                               no-year budget authority received in prior
     (2) there is at least 50% risk-sharing     generated by the terms of the trust
                                                                                               years. Budget authority is the authoriza­
     with a private-sector institution, and     agreement or statute. At the point of
                                                                                               tion provided by law to enter into financial
     (3) the DCA guarantee addresses a          collection, these receipts are unavailable,
                                                                                               obligations that result in immediate or
     financial market failure in-country and    depending upon statutory requirements,
                                                                                               future outlays of federal funds. Budgetary
     does not "crowd-out" private sector        or available immediately.
                                                                                               resources also include reimbursement and
     lending. The DCA can be used in any                                                       other income (that is, spending authority
                                                The capital investment fund contains
     sector and by any USAID operating                                                         from offsetting collections credited to
                                                no-year (non-expiring) funds to provide
     unit whose project meets the DCA                                                          an appropriation of fund account) and
                                                the Agency with greater flexibility to
     criteria. DCA projects are approved by                                                    adjustments (that is, recoveries of prior
                                                manage investments in technology
     the Agency Credit Review Board and                                                        year obligations).
                                                systems and facility construction that
     the Chief Financial Officer.
                                                the annual appropriation for Operating
                                                                                               Unobligated balances associated with
•	   Loan Guarantees to Egypt                   Expenses does not allow.
                                                                                               appropriations that expire at the end
     Program
                                                                                               of the fiscal year remain available
                                                Deposit funds are established for
     The Loan Guarantees to Egypt Program                                                      for obligation adjustments, but not
                                                ( 1 ) amounts received for which USAID
     was established under the Emergency                                                       new obligations, until that account is
                                                is acting as a fiscal agent or custodian,
     Wartime Supplemental Appropriations                                                       canceled. When accounts are canceled
                                                (2) unidentified remittances, (3) monies
     Act of2003. Under this program,                                                           five years afrer they expire, amounts are
                                                withheld from payments for goods or
     the U.S. Government was authorized                                                        not available for obligations or expendi­
                                                services received, and (4) monies held
     to issue an amount not to exceed                                                          ture for any purpose and are returned to
                                                waiting for distribution on the basis of
     $2 billion in loan guarantees to Egypt                                                    Treasury.
                                                legal determination.
     during the period beginning March 1 ,
     2003 and ending September 30, 2005.                                                       The "Department of Defense and
     New loan guarantees totaling $ 1 .25                                                      Full-Year Continuing Appropriations
                                                C. BASIS OF ACCOUNTI NG
     billion were issued in fiscal year 2005                                                   Act, 20 1 1 " signed into law as P.L. 1 12-1 0
     before the expiration of the program.      Transactions are recorded on both an           provides to USAID extended authority to
                                                accrual and budgetary basis. Under the         obligate funds. USAID's appropriations
                                                accrual basis, revenues are recognized         have consistently provided essentially
Fund Types                                                                                     similar authority, commonly known as
                                                when earned and expenses are recognized
The statements include the accounts of all      when a liability is incurred, without regard   " 5 1 115 17" authority, a name that is based
funds under USAID's control. Most of            to receipt or payment of cash. Budgetary       on references to the previous appropria­
the fund accounts relate to general fund        accounting facilitates compliance with         tions acts. Under this authority, funds
appropriations. USAID also has a special        legal constraints on, and controls of, the     shall remain available for obligation for an
fund, revolving funds, trust funds, deposit     use of federal funds. The accompanying         extended period if such funds are initially
funds, a capital investment fund, receipt       Balance Sheet, Statement of Net Cost,          obligated within their initial period of
account, and budget clearing accounts.          and Statement of Changes in Net Position       availability.




USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECT/ON
                                                                                                                                     33
E. REVENUES AND OTH ER                           F. FUND BALANCE WITH                          I. DI RECT LOANS AND LOAN
FINANCING SOURCES                                THE U.S. TREASURY                             GUARANTEES

USAID receives the majority of its funding                                                     Loans are accounted for as receivables afrer
                                                 Cash receipts and disbursements are
through congressional appropriations­                                                          funds have been disbursed. For loans
                                                 processed by the U.s. Treasury. The fund
annual, multi-year, and no-year (non­                                                          obligated before October 1 , 1991 (the
                                                 balances with Treasury are primarUy
expiring) appropriations-that may be                                                           pre-credit reform period), loan principal,
                                                 appropriated funds that are available
used within statutory limits. Appropria­                                                       interest, and penalties receivable are reduced
                                                 to pay current liabilities and finance
tions are recognized as a financing source                                                     by an allowance for estimated uncollectible
                                                 authorized purchase commitments, but
(Le. Appropriations used) on the Statement                                                     amounts. The allowance is estimated based
                                                 they also include revolving, deposit, and
of Changes in Net Position at the time the                                                     on a net present value method prescribed by
                                                 trust funds.
related program or administrative expenses                                                     OMB that takes into account country risk

are incurred. Appropriations expended                                                          and projected cash flows.

for capitalized property and equipment are       G. FOREIGN CU RRENCY
                                                                                               For loans obligated on or afrer October 1 ,
not recognized as expenses. In addition to
                                                 The Direct Loan Program has foreign           1 9 9 1 , the loans receivable are reduced by
funds warranted directly to USAID, the
                                                 currency funds, which are used to disburse    an allowance equal to the net present
agency also receives allocation transfers
                                                 loans in certain countries. Those balances    value of the cost to the United States
from the u.S. Department of Agriculture
                                                 are reported at the U.s. dollar equiva­       Government of making the loan.
(USDA) Commodity Credit Corporation,
                                                 lents using the exchange rates prescribed     This cost, known as "subsidy", takes into
the Executive Office of the President, the
                                                 by the u.s. Treasury. A gain or loss on       account all cash inflows and outflows
Department of State, and Millennium
                                                 translation is recognized for the change      associated with the loan, including the
Challenge Corporation (MCC).
                                                 in valuation of foreign currencies at         interest rate differential between the loans

Amounts received from other Federal              year-end. Additionally, some USAID            and Treasury borrowing, the estimated

agencies under reimbursable agreements           host countries contribute funds for the       delinquencies and defaults net of recov­

are recognized as revenue as related             overhead operation of the host mission        eries, and offsets from fees and other

expenditures are incurred.                       and the execution of USAID programs.          estimated cash flows. This allowance is
                                                 These funds are held in trust and reported    re-estimated when necessary and changes
Additional financing sources for USAID's         in U.S. dollar equivalents on the Balance     reflected in the operating statement.
various credit programs and trust funds          Sheet and Statement of Net Costs.
include amounts obtained through collec­                                                       Loans have been made in both U.S. dollars

tion of guaranty fees, interest income on                                                      and foreign currencies. Loans extended in
                                                 H. ACCOUNTS RECEIVABLE                        foreign currencies   can   be with or without
rescheduled loans, penalty interest on
delinquent balances, permanent indefinite                                                      "Maintenance of Value" (May).
                                                 Accounts receivable consist of amounts
borrowing authority from u.s. Treasury,                                                        Those with MOV place the currency
                                                 due mainly from foreign governments
proceeds from the sale of overseas real                                                        exchange risk upon the borrowing govern­
                                                 but also from other Federal agencies and
property acquired by USAID, and advances                                                       ment; those without MOV place the risk
                                                 private organizations. USAID regards
from foreign governments and interna­                                                          on USAID. Foreign currency exchange
                                                 amounts due from other Federal agencies
tional organizations.                                                                          gain or loss is recognized on those loans
                                                 as 1 00 percent collectible. The Agency
                                                                                               extended without May, and reflected in
                                                 establishes an allowance for uncollect­
Revenues are recognized as financing sources                                                   the net credit programs receivable balance.
                                                 ible accounts receivable for non-loan
to the extent that they are received by
                                                 or revenue generating sources based on        Credit program receivables also include
USAID from other agencies, other govern­
                                                 historical analysis of collectability.        origination and annual fees on outstanding
ments and the public. Imputed revenues are
reported in the financial statements to offset                                                 guarantees, interest on rescheduled loans

the imputed costs.                                                                             and late charges. Claims receivables
                                                                                               (subrogated and rescheduled) are due from
                                                                                               foreign governments as a result of defaults
                                                                                               for pre-1992 guaranteed loans. Receivables
                                                                                               are stated net of an allowance for uncol­
                                                                                               lectible accounts; determined using an




                                                                                                                                        34
                                                                            USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
OMB approved net present value default         categorizable as excess, obsolete, or unser­     N. LIABILITIES FOR LOAN
methodology.                                   viceable operating materials and supplies.       GUARANTEES

While estimates of uncollectible loans                                                          The Credit Reform Act (CRA) of 1 990,
and interest are made using methods            L. PROPERTY, PLANT AND                           which became effective on October 1 ,
prescribed by OMB, the final determina­        EQU IPMENT                                       1 9 9 1 , significantly changed the manner
tion as to whether a loan is collectible is                                                     in which USAID's loan programs finance
also affected by actions of other U.S.         USAID capitalizes all property, plant and        their activities. The main purpose of CRA
Government agencies.                           equipment that have an acquisition cost          was to more accurately measure the cost
                                               of $25,000 or greater and a useful life
                                                                                                of Federal credit programs and to place
                                               of two years or more. Acquisitions that
                                                                                                the cost of such programs on a budgetary
J. ADVANCES                                    do not meet these criteria are recorded
                                                                                                basis equivalent to other Federal spending.
                                               as operating expenses. Assets are capi­
                                                                                                Consequently, commencing in fiscal
Funds disbursed in advance of incurred         talized at historical cost, depending on         1 992, USAID can only make new loans
expenditures are recorded as advances.         when the asset was put into production           or guarantees with an appropriation
Most advances consist of funds disbursed       and depreciated using the straight-line          available to fund the cost of making the
under letters of credit to contractors and     method (mid-year and mid-quarter).               loan or guarantee. This cost is known
grantees. The advances are liquidated          Real property is depreciated over 20
                                                                                                as "subsidy."
and recorded as expenses upon receipt of       years, nonexpendable personal property
expenditure reports from the recipients.       is depreciated over three to five years, and     For USAID's loan guarantee programs,
                                               capital leases are depreciated according         when guarantee commitments are made,
                                               to the terms of the lease. The Agency            an obligation for subsidy cost is recorded
K. I NVENTORY AND RELATED
                                               operates land, buildings, and equipment          in the program account. This cost is
PROPERTY                                       that are provided by the General Services        based on the net present value of the
                                               Administration. Rent for this property is        estimated net cash outflows to be paid by
USAID's inventory and related property
                                               expensed.    Internal use software that has      the Program as a result of the loan
is comprised of operating materials and
                                               development costs of $300,000 or greater         guarantees, except for administrative
supplies. Some operating materials and
                                               is capitalized. Deferred maintenance             costs, less the net present value of all cash
supplies are held for use and consist
                                               amounts are immaterial with respect to           inflows to be generated from those
mainly of computer paper and other
                                               the financial statements.                        guarantees. When the loans are disbursed,
expendable office supplies not in the hands
of the user. USAID also has materials                                                           the subsidy cost is disbursed from the
and supplies in reserve for foreign disaster                                                    program account to a financing account.
                                               M. LIABILITIES
assistance stored at strategic sites around
                                                                                                For loan guarantees made before the CRA
the world. These consist of tents, vehicles,   Liabilities represent the amount of monies
                                                                                                (pre-1 992), the liability for loan guaran­
and water purification units. The Agency       or other resources that are likely to be paid
                                                                                                tees represents an unfunded liability.
also has birth control supplies stored at      by USAID as the result of transactions or
                                                                                                Footnote 6 presents the unfunded
several sites.                                 events that have already occurred. However,
                                                                                                amounts separate from the post-1991
                                               no liability can be paid by the Agency
USAID's office supplies are deemed items                                                        liabilities. The amount of unfunded
                                               without an appropriation or borrowing
held for use because they are tangible                                                          liabilities also represents a future funding
                                               authority. Liabilities for which an appro­
personal property to be consumed in                                                             requirement for USAID. The liability is
                                               priation has not been enacted are therefore
normal operations. Agency supplies held                                                         calculated using a reserve methodology
                                               classified as liabilities not covered by
in reserve for future use are not readily                                                       that is similar to OMB prescribed method
                                               budgetary resources (unfunded liabilities),
available in the market, or there is more                                                       for post-1991 loan guarantees.
                                               and there is no certainty that the appropria­
than a remote chance that the supplies
                                               tions will be enacted. Also, these liabilities
will be needed, but not in the normal
                                               can be abrogated by the U.S. Government,
course of operations. Their valuation is
                                               acting in its sovereign capacity.
based on cost and they are not considered
"held for sale." USAID has no supplies




                                                                                                                                     35
USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
O. ANNUAL, SICK, AND                           USAID do not make contributions to                S. NON-ENTITY ASSETS
OTHER LEAVE                                    fund these future benefits.
                                                                                                 Non-entity fund balances are amounts in
Annual leave is accrued as it is earned and    Federal employee benefit costs paid               Deposit Fund accounts. These include
the accrual is reduced as leave is taken.      by OPM and imputed by USAID are                   such items as: funds received from outside
Each year, the balance in the accrued          reported on the Statement of Net Cost.            sources where the government acts as
annual leave account is adjusted to reflect                                                      fiscal agent, monies the government has
current pay rates. To the extent that                                                            withheld awaiting distribution based on
current or prior year appropriations are       Q. COMMITMENTS AND                                legal determination, and unidentified
not available to fund annual leave earned      CONTINGENCIES                                     remittances credited as suspense items
but not taken, funding will be obtained                                                          outside the budget. For USAID, non­
                                               A contingency is an existing condition,
from future financing sources. Sick leave                                                        entity assets are minimal in amount as
                                               situation or set of circumstances involving
and other types of leave are expensed as                                                         reflected in Note 3, composed solely of
                                               uncertainty as to possible gain or loss to
taken.                                                                                           accounts receivables net of allowances.
                                               USAID. The uncertainty will ultimately
                                               be resolved when one or more future
P. RETIREMENT PLANS AND                        events occur or fail to occur. For pending,       T. AGENCY COSTS
POST EMPLOYMENT BENEFITS                       threatened or potential litigation, a
                                               liability is recognized when a past trans­        USAID costs of operations are comprised
USAID recognizes its share of the cost         action or event has occurred, a future            of program and operating expenses.
of providing future pension benefits to        outflow or other sacrifice of resources           USAID/Washington program and
eligible employees over the period of          is likely, and the related future outflow         Mission related expenses by objective are
time the employees provide the related         or sacrifice of resources is measurable.          obtained directly from Phoenix, the
services. The pension expense recog­           For other litigations, a contingent liability     Agency general ledger. A cost allocation
nized in the financial statements equals       is recognized when similar events occur           model is used to distribute operating
the current service cost for USAID             except that the future outflow or other           expenses, including Management Bureau,
employees for the accounting period less       sacrifice of resources is more likely than        Global Development Alliance, Trust
the amount contributed by the employees.       not. Footnote 14 identifies commitments           Funds and Support Offices costs to
The measurement of the service cost            and contingency liabilities.                      specific goals. Expenses related to Credit
requires the use of an actuarial cost                                                            Reform and Revolving Funds are directly
method and assumptions. The Office of                                                            applied to specific agency goals based on
Personnel Management (OPM) adminis­            R. NET POSITION                                   their objectives.
ters these benefits and provides the factors
                                               Net position is the residual differ­
that USAID applies to report the cost.
                                               ence between assets and liabilities. It is        U. PARENT/CHILD REPORTI NG
The excess of the pension expense over
                                               composed of unexpended appropriations
the amount contributed by USAID and
                                               and cumulative results of operations.             USAID is a party to allocation transfers
employees represents the amount being
                                                                                                 with other federal agencies as both a
                                               •	
financed directly through the Civil Service         Unexpended appropriations are the            transferring (parent) entity and receiving
Retirement and Disability Fund admin­               portion of the appropriations repre­         (child) entity. Allocation transfers are legal
istered by OPM. This cost is considered             sented by undelivered orders and             delegations by one department of its ability
imputed cost to USAID.                              unobligated balances.                        to obligate budget authority and outlay
                                                                                                 funds to another department. A separate
                                               •	
USAID recognizes a current-period                   Cumulative results of operations are
expense for the future cost of post retire­                                                      fund account (allocation account) is
                                                    also part of net position. This account
ment health benefits and life insurance for                                                      created in the U.S. Treasury as a subset of
                                                    reflects the net difference between
its employees while they are still working.                                                      the parent fund account for tracking and
                                                    (i) expenses and losses and (ii) financing
USAID accounts for and reports this                                                              reporting purposes. All allocation transfers
                                                    sources, including appropriations,
expense in its financial statements in a                                                         of balances are credited to this account,
                                                    revenues and gains, since the inception
manner similar to that used for pensions,                                                        and subsequent obligations and outlays
                                                    of the activity.
with the exception that employees and                                                            incurred by the child entity are charged to




                                                                                                                                          36
                                                                            USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
this allocation account as they execute the        NOTE 2. F U N D BALANCE WITH TREASU RY
delegated activity on behalf of the parent
entity. Generally, all financial activity          Fund Balance with Treasuty as of September 30, 201 1 and 20 1 0 consisted of the following:
related to these allocation transfers (e.g.
budget authority, obligations, outlays) is                                  F U N D B A L A N C E W I TH T R E AS U RY
reported in the financial statements of the                                                     { !, i i t fHl\(JlJ rI"
parent entity, from which the underlying
                                                    Fund Balance                                                                20 1 1               20 1 0
legislative authority, appropriations, and
budget apportionments are derived. Per              Trust Funds                                                           $      142,393        $       83.825

OMB guidance, child transfer activities             Revolving Funds                                                            5.790,820             5.245.75 1
are to be included and parent transfer              Appropriated Funds                                                        2 1 .825.809          2 1 .936.849
activities are to be excluded in trial balances.    Other Funds                                                                          (86)          (44.940)
Exceptions to this general rule affecting           Total                                                                 $ 27.758.936          $ 27.22 1 .485
USAID include the Executive Office of the
President, for whom USAID is the child              Status of Fund Balance with Treasury                                        201 1                2010
in the allocation transfer but, per OMB             Unobligated Balance
guidance, will report all activity relative            Available                                                          $ 7.575.836           $    6.044.4 1 3
to these allocation transfers in USAID's                Unavailable                                                            2.720.975             3.237.729
financial statements. In addition to these
                                                    Obligated and Other Balances Not Yet Disbursed (Net)                      17.462. 1 25          1 7.939.343
funds, USAID allocates funds as the
                                                    Total                                                                 $ 27.758.936          $ 27.22 1 .485
parent   to:



•   Department of Energy
                                                   Unobligated balances become available                      The FY 20 1 1 Fund Balance with Treasury

•   Department of Justice                          when apportioned by the OMB for obli­                      in the "Other" category is reported as
                                                   gation in the current fiscal year. Obligated               $86 thousand abnormal (credit balance) .
•   Department of Labor                            and other balances not yet disbursed (net)                 This abnormal balance is due to transac­
                                                   include balances for non-budgetary funds                   tions posted into Suspense accounts that
•   Department of State
                                                   and unfilled customer orders without                       were not applied to the applicable appro·
                                                   advances. The unobligated and obligated                    priations as of the end of the accounting
•   Department of the Treasury
                                                   balances are reflected on the Combined                     period.
•   Nuclear Regulatory Commission.                 Statement of Budgetary Resources.

USAID receives allocation transfers
as the child from:

•   Department of State

•   Executive Office of the President

•   Millennium Challenge Corporation

•   United States Department of
    Agriculture, Commodity Credit
    Corporation.




                                                                                                                                                              37
USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
NOTE 3. ACCOUNTS REC EIVAB LE, N ET

The primary components of USAID's accounts receivable as of September 30, 20 1 1 and 20 1 0 are as follows:


                                                                   A C C O U N T S R E C E I VA B L E , N E T
                                                                                        I !f) l !1()(J.... (JfJo)<., J

                                                                                    Receivable                               Allowance              Receivable Net        Receivable Net
                                                                                      Gross                                  Accounts                    20 1 1                  2010
 Intragovernmental
     Appropriation Reimbursements from Federal Agencies                             $           356                                    N/A             $       356           $         587
     Accounts Receivable from Federal Agencies                                            3 1 ,4 1 0                                   N/A                 3 1 ,4 1 0             73,489
     Less Intra-Agency Receivables                                                      (3 1 ,546)                                     N/A                 (3 1 ,546)            (73,856)
 Total Intragovernmental Accounts Receivable                                                   220                                     N/A                     220                    220
 Accounts Receivable from the Public                                                    1 04, 1 79                                  (9,7 1 2)              94,467                121,101
 Total Receivables                                                                  $   1 04,399                             $      (9,7 1 2)          $   9<4,687           $   1 2 1 ,32 1




Entity intragovernmental accounts                             All other entity accounts receivable consist                                      based on a historical analysis of collect­
receivable consist of amounts due                             of amounts managed by missions or                                                 ability. Accounts receivable from missions
from other U.S. Government agencies.                          USAIDlWashington. These receivables                                               are collected and recorded to the respec­
No allowance accounts have been                               consist of overdue advances, unre­                                                tive appropriation.
established for the intragovernmental                         covered advances, and audit findings.
accounts receivable, which are                                The allowance for uncollectable accounts                                          Interest receivable is calculated separately,

considered to be 1 00% collectible.                           related to these receivables is calculated                                        and there is no interest included in the
                                                                                                                                                accounts receivable listed above.




NOTE 4. OTH E R ASS ETS

Advances as of September 30, 20 1 1 and 20 1 0 consisted of the following:

                                                                                                                                                Advances to Contractors/Grantees are
                                               A DVA N C ES
                                                                                                                                                amounts that USAID pays to them to
                                               ( I, r l , ill,\   , I I ,' .... )
                                                                                                                                                cover their immediate cash needs related
                                                                                         20 1 1                              2010               to program implementation until they
 Intragovemmental                                                                                                                               submit expense reports to USAID and
    Advances to Federal Agencies                                                    $       96.2 1 9                     $       67,653         USAID records those expenses. Advances
                                                                                                                                                to Host Country Governments and Insti­
 Total Intragovernmental                                                                    96.2 1 9                             67,653
                                                                                                                                                tutions represent amounts advanced by
    Advances to Contractors/Grantees                                                     433.078                             555, 1 35
                                                                                                                                                USAID missions to host country govern­
    Advances to Host Country Governments and Institutions                                 1 1 3. 1 23                        23 1 ,4 1 1
                                                                                                                                                ments and other in-country organiza­
    Advances, Other                                                                           2,968                               2.575
                                                                                                                                                tions, such as educational institutions and
 Total with the Public                                                                   549, 1 69                           789. 1 2 1         voluntary organizations. Advances, Other
 Total Other Assets                                                                 $    645,388                         $   856,774            consist primarily of amounts advanced for
                                                                                                                                                living quatters, travel, and home service.




                                                                                                                                                                                           38
                                                                                                              USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
NOTE 5. CASH AN D OTH ER MON ETARY ASSETS

Cash and Other Monetary Assets as of September 30, 20 1 1 and 2 0 1 0 are as follows:


                                                     C A S H A N D OTH E R M O N ETA RY A S S ETS
                                                                            (III 1 IH)II)oll,I\)
    Cash and Other Monetary Assets                                                                                            lOl l               10 1 0
        Imprest Fund-Headquarters                                                                                       $             5      $             5
        UE and Micro and Small Enterprise Fund Cash w/Fiscal Agent                                                                    50                   50
        Foreign Currencies                                                                                                    306,580             265.320
    Total Cash and Other Monetary Asseu                                                                                 $     306.635        $    265.375


USAlD has imprest funds in various                         overseas U.S. Disbursing Officers to           provided to USAID by the Department
overseas locations. These funds are                        which USAID is liable for any shortages.       of State was $5 thousand in FY 20 1 1
provided by the Department of State                        The cumulative balance of imprest funds        and FY 20 1 0.




NOTE 6. DI RECT LOANS AN D LOAN GUARANTEES, NET

USAlD operates the following loan and/or                   guarantees resulting from obligations made     an annual basis to adjust for changes in
loan guarantee programs:                                   prior to 1 992 are reported as a liability.    risk and interest rate assumptions. Direct
                                                                                                          loans are reported net of an allowance for
•     Direct Loan Program (Direct Loan)                    The Credit Reform Act of 1 990 prescribes      this subsidy cost (allowance for subsidy).
                                                           an alternative method of accounting for        The subsidy costs associated with loan
      Urban and Environmental Program CUE}
                                                           direct loans and guarantees resulting from
•

                                                                                                          guarantees are reported as loan guarantee
•     Micro and Small Enterprise                           obligations made after 1 991 . Subsidy cost,   liability.
      Development Program (MSED)                           which is the net present value of the cash
                                                           flows (Le. interest rates, interest supple­    An  analysis of loans receivable, loan guar­
•     Israel Loan Guarantee Program                        ments, estimated defaults, fees, and other     antees, liability for loan guarantees, and the
      (Israel Loan)                                        cash flows) associated with direct loans       nature and amounts of the subsidy costs
                                                           and guarantees, is required by the Act to      associated with the loans and loan guaran­
•     Development Credit Authority                         be recognized as an expense in the year        tees are provided in the following sections.
      Program (DCA)                                        in which the direct loan or guarantee is
                                                           disbursed. Subsidy cost is calculated by       The following net loan receivable amounts
•     Egypt Loan Guarantee Program
                                                           agency program offices prior to obligation     are not the same as the proceeds that
                                                           using a model prescribed by the Office of      USAlD would expect to receive from selling
Direct loans resulting from obligations
                                                           Management and Budget (OMB). Subsidy           its loans. Actual proceeds may be higher or
made prior to 1 992 are reported net of
allowance for estimated uncollectible loans.               relating to existing loans and guarantees      lower depending on the borrower and the
Estimated losses from defaults on loan                     is generally required to be reestimated on     status of the loan.


                                                    S U M M A RY O F LOA N S R E C E I VA B LE S , N E T
                                                                            , I" ' /JOII\Of)''')
                                                                                                                     lO l l                   10 1 0
    Net Direct Loans Obligated Prior to 1 992 (Allowance for Loss Method)                                        $ 2.953. 1 6 1            $ 3.007. 1 69
    Net Direct Loans Obligated After 1991 (PresentValue Method)                                                      232.992                     255.287
    Defaulted Guaranteed Loans from Pre- 1992 Guarantees (Allowance for Loss Method)                                 206.228                     209.609
    Total Loans Receivable. Net as reported on the Balance Sheet                                                 $ 3.392.38 1              $ 3.472.065




USAID FY 20 1 1 AGENCY FINANCIAL REPORT I FINANCIAL SECTION                                                                                            39
DI RECT LOANS

                                                         D I R E C T LOA N S
                                                             (Ill TiJow,ollds)

                                                      Loans                                                                             Value of Assets
                                                    Receivable                         I nterest          Allowance for                Related to Direct
Loan Programs                                         Gross                           Receivable           Loan Losses                    Loans, Net


Direct Loans Obligated Prior to 1 992 (Allowance for Loss Method)                 as   of September 30, 20 I I :
   Direct Loans                                      $ 3,240,399                       $   330,5 1 9        $ (6 1 7,757)                $ 2,953, 1 6 1
   MSED                                                          29                                 II                  (40)
  Total                                              $   3,240,428                     $   330,530          $ (61 7,797)                 $   2,953, 1 6 1

Direct Loans Obligated Prior to 1 992 (Allowance for Loss Method) as of September 30, 20 1 0:
   Direct Loans                                      $ 3,654, 1 36                     $   32 1 ,079        $ (968,046)                  $ 3,007, 1 69
   MSED                                                         29                                 32                   (6 1 )
  Total                                              $ 3,654, 1 65                     $   32 1 , I I I     $   (968, I 07)              $ 3,007, 169

                                                      Loans                                                Allowance for                Value of Assets
                                                    Receivable                         Interest            Subsidy Cost                Related to Direct
Loan Programs                                         Gross                           Receivable          (Present Value)                 Loans, Net


Direct Loans Obligated After 1 99 1 as of September 30, 20 I I :
  Direct Loans                                       $    720,734                      $     1 4,25 1       $ (567,953)                  $     1 67,032
  UE - Subrogated Claims                                   34,990                            1 2,203                1 8,950                     66, 1 43
  MSED                                                         1 50                             ( 1 50)               ( 1 83)                      ( 1 83)
  Total                                              $    755,874                      $    26,304          $ (549, 1 86)                $     232,992

Direct Loans Obligated After 1 99 1 as of September 30, 20 I 0:
   Direct Loans                                      $    985, 1 63                    $     1 3,5 1 8      $ (798,927)                  $     1 99,754
  UE - Subrogated Claims                                   38,580                             5, 1 24               1 2,0 1 2                   55,7 1 6
  MSED                                                         1 50                             ( 1 50)               ( 1 83)                      ( 1 83)
  Total                                              $   1 ,023,893                    $     1 8,492        $   (787,098)                $     255,287



                                 TOTA L A M O U N T O F D I R E C T LOA N S D I S B U R S E D
                                                             ( ill T 1101I;OI lC!;)
Direct Loan Programs                                                                                                 20 1 1                       201 0
  Direct Loans                                                                                                  $ 3,96 1 , 1 33               $ 4,639,299
  UE - Subrogated Claims                                                                                                34,990                       38,580
  MSED                                                                                                                          1 79                        1 79
  Total                                                                                                         $   3,996,302                 $ 4,678,058




                                                                                                                                                              40
                                                                             USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SEcrlON
                         S C H E D U LE F O R R E C O N C I L I N G S U B S I DY C O S T A LLOWA N C E B A L A N C E S
                                                          ( P OST- 1 9 9 1 D I R E C T LOA N S )
                                                                           I / n Jfl'JlJ\(JfJd... ,

                                                                                 20 1 1                                                                20 1 0
                                                       Direct        UE · Sub.                                               Direct        UE · Sub.
                                                       Loan           Claims              MSED            Total              Loan           Claims              MSED        Total

8eginning Balance. Changes. and Ending Balance
Beginning Balance of the Subsidy CostAilowance        $ 798.927      $ ( 1 2.0 1 2)       $      1 83    $ 787.098          $ 800.470      $ (5.480)        $     333      $ 795.323
Add: Subsidy Expense for Direct Loans Disbursed
During the ReportingYears by Component
     (A) Interest Rate Differential Costs
     (8) Default Costs (Net of Recoveries)
     (C) Fees and Other Collections
     (D) Other Subsidy Costs
Total oftheAbove Subsidy Expense Components
Adjustments:
     (A) Loan Modifications
     (8) Fees Received
     (C) Foreclosed Property Acquired
     (D) Loans Written Off
     (E) Subsidy Allowance Amortization                 (2 1 .896)                                         (2 1 ,896)         (2 1 .896)                                     (2 1 .896)
     (F) Other                                         (209.078)        (6.938)                          (2 1 6.0 1 6)         20.353          (6.532)           ( 1 50)      1 3.67 1
Ending Balance of the Subsidy CostAllowance Before    $ 567.953      $ ( 1 8.950)         $     1 83     $ 549. 186         $ 798.927      $(12.0 1 2)      $     183      $787.098
Reestimates
Add or Subtract Subsidy Reestimates by Component
     (A) Interest Rate Reestimate
     (8) Technical/Default Reestimate
Total of the Above Reestimate Components
Ending Balance of the Subsidy Cost Allowance          $ 567.953      $ ( 1 8.950)         $     1 83     $ 549. 1 86        $ 798.927      $ ( 1 2.0 1 2)   $     1 83     $ 787.098



                                                     D E FA U LT E D G U A R A N TE E D LOA N S
                                                                           (If) l IJO/I'(Jf)'/;)

                                                    Defaulted                                                                                      Value of Assets Related
                                                   Guaranteed                                                             Allowance                     to Defaulted
                                                 Loans Receivable,                      Interest                          For Loan                   Guaranteed Loans
Loan Guarantee Programs                               Gross                            Receivable                           Losses                     Receivable, Net


Defaulted Guaranteed Loans from Pre- I 992 Guarantees (Allowance for Loss Method): 20 I I
UE                                                 $ 222.020                          $       88.05 1                    $ ( 1 03.843)                      $ 206.228
Total                                              $ 222.020                          $       88,05 1                    $ ( 1 03.843)                      $ 206.228


Defaulted Guaranteed Loans from Pre- I 992 Guarantees (Allowance for Loss Method): 20 I 0
UE                                                 $ 235.268                          $       84.7 1 9                   $ ( 1 1 0.378)                     $ 209.609
Total                                              $ 235.268                          $       84.7 1 9                   $ ( 1 1 0.378)                     $ 209.609




                                                                                                                                                                              41
USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
DEFAULTED GUARANTEED LOANS FROM POST· 1 9 9 1 GUARANTEES

In 2 0 1 1 , the UE Program experienced $3.8 million in defaults on payments.

In 2 0 1 0, the UE Program experienced $3.8 million in defaults on payments.



GUARANTEED LOANS OUTSTANDING

                                         G U A R A NT E E D LOA N S O U TSTA N D I N G
                                                             (III I iJOIISOIIC/;)

                                                                                      Outstanding                 Amount of
                                                                                        Principal,                Outstanding
                                                                                    Guaranteed Loans,              Principal
 Loan Guarantee Programs                                                               Face Value                 Guaranteed

 Guaranteed Loans Outstanding (20 I I ):
 UE                                                                                    $      8 1 7, 1 79         $      8 1 7, 1 79
 MSED                                                                                           1 4,760                     7,380
Israel                                                                                     1 1 ,6 1 5,776             1 1 ,6 15,776
 DCA                                                                                          303,495                    1 5 1 ,748
 Egypt                                                                                      1 ,250,000                 1 ,250,000
Total                                                                                  $ 1 4,00 1 .2 1 0          $ 1 3.842.083


Guaranteed Loans Outstanding (20 I 0):
UE                                                                                     $      909,509             $      909,509
MSED                                                                                            14,760                      7,380
Israel                                                                                     1 1 ,928,7 1 9             1 1 .928,7 1 9
DCA                                                                                           243,3 1 3                  1 02,399
Egypt                                                                                       1 ,250,000                 1 ,250,000
Total                                                                                  $ 1 4,346.30 I             $ 14, 1 98,007


 New Guaranteed Loans Disbursed (20 I I ):
DCA                                                                                    $       1 1 1 ,894         $        55,947
Total                                                                                  $      1 1 1 ,894          $        55,947

 New Guaranteed Loans Disbursed (20 1 0):
DCA                                                                                    $        37,676            $        1 8,838
Total                                                                                  $        37,676            $        1 8,838




                                                                                                                                       42
                                                                           USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
                                         LI A B I L I T Y F O R LOAN G U A R A N T E E S
                                                            (II I TlJOU,(JIlc/')

                                                       Liabilities for Losses                Liabilities for
                                                           on Pre- 1 992                   Loan Guarantees                      Total
                                                           Guarantees,                       for Post- I 99 I                 Liabilities
                                                        Estimated Future                      Guarantees,                     for Loan
           Loan Guarantee Programs                        Default Claims                    Present Value                    Guarantees

Liability for Loan Guarantees (Estimated Future Default Claims for pre- I 992 guarantees) as of September 30, 20 I I :
UE                                                           $      54.977                   $     1 62.947                  $    2 1 7.924
MSED                                                                                                   (66 1 )                          (66 1 )
Israel                                                                                           1 .3 1 4.845                    1 .3 1 4.845
DCA                                                                                                 30.206                          30.206

Egypt                                                                                              1 3 1 .88 1                     1 3 1 .881
Total                                                        $      54.977                   $ 1 .639.2 1 8                  $ 1 .694. 1 95



Liability for Loan Guarantees (Estimated Future Default Claims for pre-I 992 guarantees) as of September 30, 20 I 0:
UE                                                           $      64.869                   $     1 37.074                  $    20 1 .943
MSED                                                                                                   (649)                            (649)
Israel                                                                                           1 .856.2 1 4                    1 .856.2 1 4
DCA                                                                                                 1 5.035                         1 5.035

Egypt                                                                                              1 93.048                        1 93.048
Total                                                        $      64.869                   $ 2.200.722                     $ 2.265.59 1




SUBSIDY EXPENSE FOR LOAN GUARANTEES BY PROGRAM AND COMPONENT

             S U B S I DY E X P E N S E F O R LOAN G U A R A N T E E S BY P R O G R A M A N D C O M P O N E N T
                                                            (II I TIJou,UI lc/,)

                                    I nterest                                      Fees and Other
 Loan Guarantee Programs          Supplements              Defaults                  Collections                     Other               Total

Subsidy Expense for New Loan Guarantees (20 1 1 ):
DCA                                 $                  $      7. 1 89                $                           $                  $        7. 1 89
Total                              $                   $      7. 1 89                $                           $                  $        7. 1 89



Subsidy Expense for New Loan Guarantees (20 I 0):
DCA                                $                   $      1 .728                 $                           $                  $           1 .728
Total                              $                   $      1 .728                 $                           $                  $           1 .728

                                                                                                                                  (continued on next page)




                                                                                                                                                     43
USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
           S U B S I DY E X P E N S E F O R LOA N G U A R A N T E E S BY P R O G R A M A N D C O M PO N E N T (continued)
                                                              (III Thousollc/;)
                                                            Total                       I nterest Rate     Technical             Total
Loan Guarantee Programs                                  Modifications                   Reestimates      Reestimates         Reestimates
Modifications and Reestimates (20 1 1 ):
  UE                                                      $                              $                 $        230        $         230
  Israel                                                                                                          5,769                5,769
  Egypt
  Total                                                   $                              $                 $      5,999        $       5,999

Modifications and Reestimates (20 I 0):
  UE                                                      $                              $                 $                   $
  Israel                                                                                                         32,8 1 2             32,8 1 2
  Egypt                                                                                                           5,737                5,737
  Total                                                   $                              $                 $     38,549        $      38,549



                                     TOTA L LOAN G U A R A N T E E S U B S I DY E X P E N S E
                                                           (III T/lOu,OllcJ,)
Loan Guarantee Programs                                                                                        20 1 1              20 1 0
   DCA                                                                                                     $     7, 189        $      1 ,728
   UE                                                                                                             230
   MSED
   Israel                                                                                                        5,769             32,8 1 2
   Egypt                                                                                                                              5,737
   Total                                                                                                   $   1 3, 1 88      $    40,277




SUBSIDY RATES F O R LOAN GUARANTEES BY PROGRAM A N D COMPONENT:

        B U D G ET S U B S I DY RAT E S F O R LOA N G UA R A N T E E S F O R T H E C U R R E N T Y E A R ' S C O H O RTS
                                                                 I p, r( ( " "


                                                                                    Fees and
                                       Interest                                      Other
                                     Supplements                                   Collections
Loan Guarantee Programs                   (%)         Defaults (%)                     (%)           Other (%)              Total <%)

   DCA                                                    6.28%                                                               6.28%




                                                                                                                                               44
                                                                                 USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
                       S C H E D U L E F O R R E C O N C I LI N G LOA N G UA R A N T E E LI A B I L I T Y B A L A N C E S
                                                                       (III   T/101I\(1/1rl,)
                   (Post- I " I Loan Guarantees)                                   DCA               MSED            UE              Israel             Egypt           Total
                                                                     20 1 1 

8eginning Balance. Changes. and Ending Balance
8eginning Balance of the Loan Guarantee liability                              $    1 5.035      $      (649)     $ 1 37.074       $ 1 .856.2 1 4     $ 1 93.048      $2.200.722
Add: Subsidy Expense for Guaranteed Loans Disbursed During the
    ReportingYears by Component
    (A) Interest Supplement Costs
    (8) Default Costs (Net of Recoveries)
    (q Fees and Other Collections
    (D) Other Subsidy Costs                                                          7. 1 89                                                                                7. 1 89
Total of the Above Subsidy Expense Components                                        7. 1 89                                                                                7. 1 89
Adjustments:
    (A) Loan Guarantee Modifications
    (B) Fees Received                                                                 1 . 1 64                         1 . 1 53                                             2.3 1 7
    (q Interest Supplements Paid
    (D) Foreclosed Property and Loans Acquired
    (E) Oaim Payments to Lenders                                                   (27.566)           ( 1 .297)     (30.463)          ( 1 35. 1 34)                     ( 1 94,460)
    (F) Interest Accumulation on the liability Balance                                1 ,464                           3.706           1 1 5.750            8.282         1 29.202
    (G) Other                                                                       29.892             1 .285        65.993            1 35. 1 35               (I)      232.304
Ending Balance of the Loan Guarantee liability 8efore Reestimates                   27. 1 78            (66 1 )     1 77.463         1 .97 1 .965       20 1 .329      2.377.274
Add or Subtract Subsidy Reestimates by Component
   (A) Interest Rate Reestimate
    (B) Technical/Default Reestimate                                                 3.028                          ( 1 4.5 1 6)      (657. 1 20)        (69.448)       (738.056)
Total of the Above Reestimate Components                                             3.028                          ( 1 4.5 1 6)      (657. 1 20)        (69.448)       (738.056)
Ending Balance of the Loan Guarantee liability                                 $ 30.206          $     (66 1)     $ 1 62.947       $ 1 ,3 1 4.845     $ 1 3 1 .88 1   $ 1 .639.2 18


                                                                     20 1 0
Beginning Balance. Changes. and Ending Balance
Beginning Balance of the Loan Guarantee liability                              $ H.07 1          $       693      $ 1 54.794       $ 1 .824.892       $ 1 78.029      $2. 1 92.479
Add: Subsidy Expense for Guaranteed Loans Disbursed During the
    ReportingYears by Component
   (A) Interest Supplement Costs
    (B) Default Costs (Net of Recoveries)
    (q Fees and Other Collections
    (D) Other SubSidy Costs                                                           1 .728                                                                                1 ,728
Total of the Above Subsidy Expense Components                                         1 .728                                                                                1 .728
Adjustments:
   (A) Loan Guarantee Modifications
    (B) Fees Received                                                                 1 .6 1 8              3          1 .379                                               3.000
    (q Interest Supplements Paid
    (D) Foreclosed Property and Loans Acquired
    (E) Claim Payments to Lenders                                                                                    (2. 1 69)                                             (2. 1 69)
   (F) Interest Accumulation on the liability 8a1ance                                                                 6. 1 24          1 1 5.79 1           7.637         1 29.552
   (G) Other                                                                       ( 1 3.884)         ( I .H5)      ( 1 2.460)                                            (27.689)
Ending 8a1ance of the Loan Guarantee liability 8efore Reestimates                  23.533               (649)       1 47.668         1 .940.683          1 85.666      2.296.90 1
Add or Subtract Subsidy Reestimates by Component
    (A) Interest Rate Reestimate
    (8) Technical/Default Reestimate                                                (8.498)                         ( 1 0.594)         (84.469)             7.382         (96. 1 79)
Total of the Above Reestimate Components                                            (8,498)                         ( 1 0.594)         (84.469)             7.382         (96. 1 79)
Ending Balance of the Loan Guarantee liability                                 $    1 5.035      $     (649)      $ 1 37.074       $ 1 .856.2 1 4     $ 1 93.048      $2.200.722


USAID FY 20 I I AGENCY FINANCIAL REPORT 
                FINANCIAL SECTION
                                                                                                                                                                             45
                                                           A D M I N I ST R AT I V E E X P E N S E
I
                                                                       I III TIJ OIl\OIl(h)


    Loan Programs                                                                                                     20 1 1               20 1 0
        DCA                                                                                                       $    1 8.262         $    1 0.5 1 9
        Total                                                                                                     $    1 8.262         $    1 0.5 1 9



OTHER INFORMATION                                         Programs Appropriations Act, owing               3 . Reestimate amounts are subject to
                                                          $56 million that is more than one year               approval by the Office of Management
    1. Allowance for Loss for Liquidating                 delinquent. Outstanding direct loans                 and Budget (OMB), and any adjust­
       account (pre-Credit Reform Act)                    receivable for countries in violation of             ments, if necessary, will be made in
       receivables have been calculated in                Section 620q totaled $ 1 0.6 million.                Fiscal Year 2012.
       accordance with OMB guidance using                 Outstanding direct loans receivable for
       a present value method which assigns               countries in violation of the Brooke
       risk ratings to receivables based upon             Amendment totaled $56 million.
       the country of debtor. Seven countries
       are in violation of Section 620q of the          2. The MSED Liquidating Account
       Foreign Assistance Act (FAA), owing                 general ledger has a loan receivable
       $ 1 0.6 million that is more than six               balance of $29 thousand. This includes
       months delinquent. Seven countries are              a loan pending closure. This loan
       in violation of the Brooke-Alexander                is being carried at 1 00% bad debt
       Amendment to the Foreign Opera­                     allowance.
       tions Export Financing and Related




NOTE 7. I NVENTORY AN D RE LAT E D PROPE RTY, N ET

USAlD's Inventory and Related Property, Net is comprised of Operating Materials and Supplies. Operating Materials and Supplies as
of September 30, 20 1 1 and 20 1 0 are as follows:


                                                    I N V E N T O R Y A N D R E LAT E D P R O P E RT Y
                                                                       ( I l l r iJou\(/llcl\J

                                                                                                                      20 1 1               20 1 0
    Items Held for Use
       Office Supplies                                                                                            $     6.0046        $      5. 1 1 7
    Items Held in Reserve for Future Use:
       Disaster Assistance Materials and Supplies                                                                      1 1 .620              3.300
       8irth Control Supplies                                                                                          26.0 1 3              7,977
    Total Inventory and Related Property                                                                          $   43.679          $     1 6.394



Operating Materials and Supplies are                    of business and not held for sale.                 unserviceable, and no restrictions on their
considered tangible properties that                     The valuation is based on historical acqui­        use. Items costing less than $25,000 are
are consumed in the normal course                       sition costs. There are no items obsolete or       expensed as incurred.




                                                                                                                                                        46
                                                                                        USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
NOTE 8. G E N E RAL PROPE RTY, PLANT AN D EQU I P M E NT, NET

The components of Property, Plant & Equipment (PP&E) as of September 30, 20 1 1 and 20 1 0 are as follows:


                                      G E N E R A L P R O P E RTY, P L A N T A N D E Q U I P M E NT, N ET
                                                                   (If) I IJOU\(Jf)'/;J

                                                                                                                        Net Book         Net Book
                                                                                                Accumulated              Value            Value
                                                         Useful Life                 Cost       Depreciation              20 1 1           2010
 Classes of Fixed Assets:
    Equipment                                             3 to 5 years       $      83.370      $    (72,465)       $     10.905     $     1 1 .572
    Buildings. Improvements. and Renovations               20 years                 7 1 .928         (48.078)            23,850            53.356
    Land and Land Rights                                     N/A                      7.203               N/A             7.203             9. 1 78
    Assets Under Capital Lease (Note 9)                                                   900           (900)                               3.777
    Construction in Progress                                 N/A
    Internal Use Software                                 3 to 5 years             1 04.857         (72.7 1 3)           32. 1 44          39. 1 73
 Total PP&E                                                                  $    268.258       $ ( 1 94,1 56)     $     74. 102     $    1 17,056




The threshold for capitalizing assets is          USAID PP&E includes assets located in                  office buildings and residences at foreign
$25,000 except for Internal Use Software          Washington, D.C. offices and overseas                  missions, including the land on which
which is capitalized and amortized at             field missions.                                        these structures reside. These structures
$300,000. Assets are depreciated using                                                                   are used and maintained by the field
the straight line depreciation method.            Equipment consists primarily of electric               missions. USAID does not separately
USAID uses the mid-year convention for            generators, Automatic Data Processing                  report the cost of the building and the
assets purchased prior to FY 2003 and             (ADP) hardware, vehicles and copiers                   land on which the building resides.
the mid-quarter convention for assets             located at the overseas field missions.
purchased during FY 2003 and beyond.              Note 9 discusses USAID leases.                         Land consists of property owned by
Depreciable assets are assumed to have                                                                   USAID in foreign countries. Land is
                                                  Buildings, Improvements, and                           generally procured with the intent of
no remaining salvage value. There are
                                                  Renovations, in addition to Land and                   constructing buildings.
currently no restrictions on PP&E assets.
                                                  Land Rights include USAID owned




                                                                                                                                              47
USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
NOTE 9. LEASES

As of September 30, 20 1 0 and 20 1 1 Leases consisted of the following::


                                                                  LEASES
                                                              I ii ,   I hr, Ii (J, ,(r..., !

 Entity as Lessee
    Capital Leases:                                                                                               20 1 1             20 1 0
    Summary ofAssets Under Capital Lease:
       Buildings                                                                                              $        900       $    1 3,442
       Accumulated Depreciation                                                                                       (900)           (9,665)
    NetAssets under Capital Leases                                                                            $                  $     3,777

 Description of Lease(s) Arrangements. Capital leases consist of rental agreements entered into by missions for warehouses,
 parking lots, residential space, and office buildings. These leases are one year or more in duration. During FY 20 1 1 , the majority
 of the capital lease agreements converted to International Cooperative Administrative Support Services agreements and no longer
 meet the criteria of capital lease.

    Operating Leases:
    Future Payments Due:                                                                                         20 1 1             20 1 0
    Fiscal Year                                                                                              Future COlts       Future Costs
       20 1 1                                                                                                 $                  $    82,567
       201 2                                                                                                      101,0+4             78,876
       201 3                                                                                                       87,684             67,254
       20 14                                                                                                       78,777             63, 1 46
       20 1 5                                                                                                      74,365             67,823
       20 1 6                                                                                                      29,828
       After 5 Years                                                                                               69,474            1 67,993
    Lease Uabillties Covered by Budgetary Resources                                                           $   44 1 , 1 72    $   527,659


Operating lease payments total $441 million in future lease payments of which $208 million is for the USAID headquarters in
Washington, D.C. The current lease agreements are for approximately 802,41 7 sq. feet and with expiration dates of FY 2013,
FY 20 1 5 , FY 20 1 6 and FY 2020. The lessor, General Services Administration (GSA), charges commercial rates for USAlD's
occupancy. Lease payments for FY 20 1 1 and FY 20 1 0 amounted to $66.2 million and $48.2 million, respectively.




                                                                                                                                              48
                                                                                     USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
N OTE 1 0. LIA B I LITI ES COVERED AN D N OT
COVE RED BY BUDG ETARY RESOU RC ES

USAID records liabilities for amounts                       with the public represent liabilities to     be provided. The Contingent Liabilities
that are likely to be paid as the direct                    other non-federal entities.                  for Loan Guarantees is in the pre-Credit
result of events that have already occurred.                                                             Reform Urban and Environmental (UE)
USAID considers the Intragovernmental                       Liabilities not covered by budgetary         Housing Loan Guarantee liquidating
accounts payable as liabilities covered under               resources include accrued unfunded           fund. As such, it represents the estimated
budgetary resources.        These accounts                  annual leave, workers' compensa­             liability to lenders for future loan
payable are those payable to other federal                  tion benefits and separation pay.            guarantee defaults in that program.
agencies and consist mainly of unliquidated                 Although future appropriations to
                                                            fund these liabilities are probable and      As of September 30, 201 1 and 20 1 0
obligation balances related to interagency
agreements between USAID and other                          anticipated, Congressional action is         liabilities covered and not covered by

federal agencies. The accounts payable                      needed before budgetary resources can        budgetary resources were as follows:




                         L I A B I LI T I E S C O V E R E D A N D N OT C OV E R E D BY B U D G ETARY R E S O U R C E S
                                                                                (11/ I iJOI} ,(JIlc/,)
                                                                                                               20 "                      20 1 0
 Liabilities Covered by Budgetary Resources:
 Intragovernmental:
     Accounts Payable                                                                                      $       1 5.597          $      37,773
     Debt (Note I I )                                                                                           478.380                   478,280
     Liability for Capital Transfers to the General Fund of the Treasury (Note I I )                           3,1 98.706               3,202,384
     Other Liabilities (Note 12)                                                                                70 1 ,303                 489,347
 Total lntragovernmental                                                                                       4.393,986                4,207.784

Accounts Payable                                                                                               1 .722.872               2,063,359
Disbursements in Transit                                                                                           1 1 ,286                1 1 ,688
Total Accounts Payable with Public                                                                             1 .734, 1 58             2,075,047
Loan Guarantee Liability (Note 6)                                                                              1 .639,2 1 8             2,200,72 1
Other Liabilities with Public                                                                                     459,909                 39 1 , 1 23
Total Uabilities Covered by Budgetary Resources                                                            $ 8,227,27 1              $ 8.874,675

 Liabilities Not Covered by Budgetary Resources:

 Intragovernmental:
     IPAC Suspense                                                                                         $      4,968             $     ( 1 0,050)
      Unfunded FECA Liability (Note 1 3)                                                                          8,073                     1 0,005
     Other Unfunded Employment Related Liability                                                                    107                         1 09
     Other Liabilities (Note 1 2)                                                                               730.974                   1 78,302
Total Intragovernmental (Note 1 2)                                                                         $    744, 1 22           $     1 78,366
Accrued Annual Leave                                                                                             35,948                     44,36 1
FSN Separation Pay Liability                                                                                                                   305
Total Accrued Unfunded Annual Leave and Separation Pay                                                            35,948                   44,666
Future Workers' Compensation 8enefits (Note 13)                                                                   22.175                   26,035
Debt - Contingent Liabilities for Loan Guarantees (Note 6)                                                        54.977                   64,870
Total Liabilities with Public Not Covered by 8udgetary Resources                                                857.222                   3 1 3,937
Total Uablilties                                                                                           $   9,084.493            $ 9.1 88.6 1 2




USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION                                                                                         49
NOTE I I . DEBT

USAID Intragovernmental Debt as of September 30, 201 1 and September 30, 20 1 0 consisted of the following borrowings from
Treasury for post-1991 loan programs, which is classified as other debt:


                                                I NT R AG OV E R N M E NTA L D E BT
                                                               '1,,/ !h '1,,(,11,1\,

                                                          2010                                 20 1 0                               20 1 1
                                                        Beginning              Net            Ending              Net              EndIng
                Debt Due to Treasury                     Balance            Borrowing         Balance          Borrowing          Balance
 Direct Loans                                           $ 477.295             $        900    $ 478. 1 95       $                 $ 478. 1 95
 DCA                                                          85                                      85               1 00              1 85
 Total Treasury Debt                                    $ 477.380             $        900    $ 478.280         $      100        $ 478.380


Pursuant to the Federal Credit Reform Act      For FY 20 1 1 , $4 thousand accrued                 under the Act is required to be recorded
of 1 990, agencies with credit programs have   interest was included in DCA and no                 as Liability for Capital Transfers to the
permanent indefinite authority to borrow       accrued interest was included for Direct            General Fund of the Treasury. All debt
funds from the Treasury. These funds are       Loans.                                              shown is intragovernmental debt.
used to disburse new direct loans to the
public and, in certain situations, to cover    The above disclosed debt is principal
credit reform program costs. Liquidating       payable to Treasury, which represents
(pre-1 992) accounts have permanent indefi­    financing account borrowings from
nite borrowing authority to be used to cover   Treasury under the Federal Credit Reform
program costs when they exceed account         Act and net liquidating account equiry
resources.                                     in the amount of $3.2 billion, which




                                                                                                                                             50
                                                                               USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
NOTE 1 2 . OTH E R LIABI LITIES

As of September 30, 20 1 1 and 20 1 0 Other Liabilities consisted of the following:


                                      O T H E R LI A B I L I T I E S
                                              ( fi r ! /U'(i\()! ,dl.,}

                                                                              20 1 1              20 1 0
 Intragovemmental
     IPAC Suspense                                                        $        4.968      $     ( 1 0.050)
     Unfunded FECA Liability                                                       8.073             1 0.005
     Custodial Liability                                                          12.543              7.424
     Employer Contributions & Payroll Taxes Payable                               1 0.070              9.237
     Other Unfunded Employment Related Liability                                       1 07                109
     Liability forAdvances and Prepayments                                     678.690             472.686
     Other Liabilities                                                         730.974              1 78.302
 Total lntragovernmental                                                  $   1 .....5.425    $    667.7 1 3

 Accrued Funded Payroll and Leave                                                39.753              4 1 .6 1 5
 Unfunded Leave (Note 10)                                                        35.948              44.666
 Advances From Others                                                             2.688               2.485
 Deferred Credits                                                                2 1 .388            1 9.07 1
 Foreign CurrencyTrust Fund                                                    307.726             266.465
 Capital Lease Liability (Note 9)                                                                     6.3 1 0
 Other Liabilities                                                               88.354              55. 1 77
 Total Liabilities With the Public                                        $    495,857        $    435.789
 Total Other Uablllties                                                   $   1 .94 1 .282    $   1 . 103.502


Intragovernmental Liabilities represent amounts due to other federal agencies.
All remaining Other Liabilities are liabilities to non-federal entities.




USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION                                                       51
NOTE 1 3. FEDERAL E M PLOYE ES AN D VETERAN'S B E N EFITS

The provision for workers' compensation benefits payable, as of September 30, 20 1 1 and 20 1 0 are indicated in the table below.


      ACC R U E D U N F U N D E D WO R K E RS ' C O M P E N S AT I O N B E N E F I TS
                                               I Ir ,   I   ,I, () t, ')   } 'I 'I I


                                                                                           20 1 1             20 1 0
    Liabilities Not Covered by Budgetary Resources
       Future Workers' Compensation Benefits                                           $     22, 1 75     $     26,035
       Unfunded FECA Liability                                                                 8,073             1 0,005
       Total Accrued Unfunded Workers' Compensation Benefits                           $     30.248       $     36,040


The Federal Employees' Compensation                                   claims for all Federal government agencies           The actuarial estimate for the FECA
Act (FECA) provides income and                                        and seeks reimbursement two fiscal years             unfunded liability is determined by
medical cost protection to covered federal                            later from the Federal agencies employing            the DOL using a method that utilizes
civilian employees injured on the job                                 the claimants.                                       historical benefit payment patterns.
and to beneficiaries of employees whose                                                                                    The projected annual benefit payments
deaths are attributable to job-related                                For FY 201 1, USAID's total FECA                     are discounted to present value using
injury or disease. The FECA program is                                liability was $30.2 million, comprised of            economic assumption for 1 O-year Treasury
administered by the Department of Labor                               unpaid FECA billings for $8. 1 million
                                                                                                                           notes and bonds and the amount is
(DOL). DOL initially pays valid FECA                                  and estimated future FECA costs of
                                                                                                                           further adjusted for inflation.
                                                                       $22.2 million.



NOTE 1 4. COM MITM ENTS AN D CONTI NGENCIES

USAID is involved in certain claims, suits,                           •       The third case is a contract claim           •   The sixth case is a companion to a
and complaints that have been filed or are                                    that USAID wrongfully withheld                   prior case, in which a contractor seeks
pending. These matters are in the ordinary                                    payment for invoices submitted                   compensation for efforts and expenses
course of the Agency's operations and are                                     under the "Hurricane Mitch" host­                it claims to have incurred under a
not expected to have a material adverse                                       country. The estimated loss is                   terminated host country contract with
effect on the Agency's financial operations.                                  $2.2 million.                                    an estimated loss of $ 1 .8 million.

As of September 30, 20 1 1 a total of eight                           •       The fourth case is a contract claim for      •   The seventh case is a claim for damages
cases were pending.                                                           approximately $2 million in damages              suffered allegedly as a result of USAID­
                                                                              sought.                                          caused delay in relation to the delivery
Seven cases have been designated as reason­                                                                                    and off-loading of grain. Filings
ably possible totaling $26.5 million:                                 •       In the fifth case a contractor entered
                                                                                                                               to date with the Board of Contract
                                                                              into a firm fixed-price contract
                                                                                                                               Appeals have not quantified damages;
•    The first case is a retroactive price                                    for the construction of a road but
                                                                                                                               however, in pre-litigation correspon­
     adjustment application. USAID is not                                     contends that it discovered differing
                                                                                                                               dence with the Agency the contractor
     a party to the case; however, Title II                                   site conditions while constructing
                                                                                                                               identified $ 1 .5 million in damages.
     funds may be the source of funding                                       the road. In particular, it alleges that
     if the plaintifFs claims are successful.                                 USAID instructed it to use swampy            The remaining case has a remote likeli­
     The estimated loss is $ 1 0 million.                                     embankment fill in areas not included        hood of unfavorable outcome.
                                                                              in a pre-bid document estimating
•    The second case is a claim that USAID
                                                                              areas of land covered by a swamp.            During FY 20 1 1 there was one settlement
     has willfully violated the Fair Labor                                                                                 and one dismissal.
                                                                              The plaintiff claims that USAID
     Standards Act by failing to compensate
                                                                              owes it an equitable adjustment of
     employees for overtime worked. The                                                                                    •   The first case was dismissed in the first
                                                                              $2 million.
     estimated loss is $7 million.                                                                                             quarter. The case was originally identi­



                                                                                                                                                                      52
                                                                                                        USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
    fied as a remote loss of $ 1 .6 million, in            USAID's normal course of business                to enter into other types of agreements
    which the plaintiffwas suing on grounds                involves the execution of project agree­         or treaties with foreign governments that
    of a breach of contract seeking relief                 ments with foreign governments that are          create contingent liabilities.
                                                           a type of treaty. All of these agreements
•   In the third quarter there was one                    give rise to obligations that are fully
    senlement in which the Agency paid                     reponed on USAID's financial statements,
    the contractor $0.50 million inclusive
                                                           and none of which are contingent. It is
    of interest. The case was then dismissed
                                                           not USAID's normal business practice
    by the Coun.




NOTE I S. RECOVERY ACT F U N DS

                                                                                                            In February, 2009 Congress passed the
        R E C OV E RY ACT A S S E T S , L I A B I LI T I E S A N D N ET P O S ITI O N
                                                                                                            American Recovery and Reinvestment
                                              (1/1 l /lO/I;(/liclo)
                                                                                                            Act of 2009 with the goal to create jobs,
                                                                      Recovery Act Assets, Liabilities      spur economic activity and invest in long
                                                                            and Net Position                term economic growth. This $787 billion
                                                                         lO l l               20 1 0        Recovery plan includes federal tax cuts
                                                                                                            and incentives, an expansion of unem­
Fund Balance With Treasury                                        $               976     $      1 5,862
                                                                                                            ployment benefits, and other spending on
Total Assets                                                                  976               1 5,862
                                                                                                            social entitlement programs. In addition,
                                                                                                            federal agencies are using Recovery funds
Accounts Payable                                                                  853             5,624
                                                                                                            to award contracts, grants, and loans
Total Uabilitles                                                              853                5,624
                                                                                                            around the country.

Unexpended Appropriations                                                         1 23           1 0,238    USAID received $38 million for informa­
Cumulative Results of Operations
                                                                                                            tion technology security and upgrades
Total Net Position                                                            1 23              1 0,238
                                                                                                            to support mission-critical operations.
Total Uabllities and Net Position                                            $976         $     1 5,862     Due to Agency IT priorities and toward
                                                                                                            maximizing job creation with the Recovery
                                                                                                            Act funds, USAID determined that
                                                                      Status of Recovery Act Funds
                                                                                                            the funding should be dedicated to the
Total Budgetary Resources                                         $                 8     $     1 7,948     Global Acquisition and Assistance System
                                                                                                            (GLAAS) project. There is one fund in
Obligations Incurred                                                                             1 7,948
                                                                                                            association with the Recovery Act Funds.
Unobligated Balance                                                                 8
Total Status of Budgetary Resources                               $                 8     $     1 7,948     The balances for each line item in this
                                                                                                            footnote are included in the cumulative
Total, Unpaid Obligated Balance, Net, End of Period                           968               1 5,854
                                                                                                            balances presented in their respective
Net Oudays                                                        S        1 4,886        $     1 8,5 1 7   financial statements.




USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION                                                                                       53
     NOTE 1 6. I NTRAGOVE R N M E NTAL COSTS
     AN D EAR N E D REV E N U E

     The Consolidated Statement o f Net Cost                        The format of the Consolidated Statement                           Responsibility Segments are defined in
     repotts the Agency's gross costs less earned                   of Net Cost is consistent with OMB                                 Note 1 7.
     revenues to arrive at net cost of opera­                       Circular A-I 36 guidance.
     tions by Objective and Program Area, as                                                                                           Intragovernmental costs and earned

     of September 30, 201 1 . These objectives                      Note 16 shows the value of transactions                            revenue sources relate to transactions

     are consistent with the State/USAID's                          between USAID and other federal entities                           between USAID and other federal entities.

     Strategic Planning Framework.                                  as well as non-federal entities. These are                         Public costs and earned revenues relate
                                                                    also categorized by Objectives, Program                            to transactions between USAID and
                                                                   Areas and Responsibility Segments.                                  non-federal entities.



                                         I NT R A G OV E R N M E NTA L C O STS A N D E A R N E D R E V E N U E
                                                                     B Y R E S P O N S I B I L I T Y S EG M E N T
                                                               Fo! r h c YC(f f ; El le/ce/ Sc/)rcffJl)(" 30, } O l l ({lie/ } 0 1 0
                                                                                         (III 7 1 1 0fJ\ ({IIe/;)

                                                                                                                                          Ladn
                                     Afghanl-                                                                     Europe                 America
                                      stan &                                                                        &            Global     &                 Middle           20 1 1            20 1 0
Objective                            Pakistan          Africa           Asia         DCHA           EGAT          Eurasia        Health Caribbean              East            Total             Total

Peace and Security
  Intragovernmental Costs                1 5,659          2,796                          8,667         2,728         2,764                        4,965              248           37 27 $            36, 1 33
  Public Costs                         306,965           97,252        1 44,0 1 4      1 75,959        4, m         47,876                     1 29,48 1         ( I ,ns)        903,946          1 ,043,256
     Total Program Costs               322,624          100,048        1 44,0 1 4      1 84,626        6,905        50,640                     1 34,446          ( 1 ,530)       94 1 ,m          1 ,079,389
  Intragovernmental Earned Revenue       ( 1 , 1 25)       (322)           (370)           (695)          (5 1)        (297)                       (555)                            (3,414)           (5,780)
  Public Earned Revenue                     (43 1)         ( 1 24)         ( 1 44)         (268)          (20)         (1 14)                      (2 14)                           (1,3 1 5)         ( 1 , 1 1 5)
     Total Earned Revenue                ( 1 ,556)         (446)           (5 1 4)         (963)          (71)         (4 1 1)                     (769)                 I         (4 729)
                                                                                                                                                                                      .               (6,895)
Net Program Costs                     32 1 ,068         99,602         14],500        1 83,663        6,8]4        50,229                     1 ]],677          ( 1 ,529)       9]7,044          1 ,072,494

GoverningJustly and Democratically
  Intragovernmental Costs               22,657            9,672                          4,405         4,4n         1 2,554                       9,380           8,840            71 .985           59,680
  Public Costs                         5 1 2.971        245,334        245,680          90,988         5, 1 80     1 79,974                    1 84, 1 2 1     307,972          1 .772).20        1 ,732,8 1 3
     Total Program Costs               535,628          255,006        245,680          95,393         9,657       1 92,528                   1 93,501         3 1 6,8 1 2      1.844).05         1 .792,493
  Intragovernmental Earned Revenue       (1 ,680)          (945)           (602)           (0444)         (70)       (1,158)                       (923)           (95 1 )          (6.n3)           (22,445)
  Public Earned Revenue                    (655)           (364)           (222)          (1 71)          (27)        (446)                        (355)           (366)           (2.606)            ( 1 ,84 1 )
     Total Earned Revenue                (2,335)         ( 1 ,309)         (824)           (615)          (97)      (1,604)                     ( 1 ,278)        ( 1 ,3 1 7)        (9.379)          (24,286)
Net Program Costs                     533,293          253,697        244,856          94,778         9,560       1 90,924                    1 92,223        3 1 5,495        1 ,8]4,826        1 ,768,207

Investing in People
  Intragovernmental Costs               4 1 ,636         9 1 ,753                        2,573       (25,591)        8,557         36,5 1 6     1 2,302          1 6,446          1 84.1 92         20 1 , 1 95
  Public Costs                         475,324          646,487        249.860          58,496       73,488         8 1 ,339     806,9 1 0    1 3 1 ,274       559,074          3,082).52         2,96 1 , 1 44
     Total Program Costs               5 1 6,960        738,240        249.860          6 1 ,069     47.897         89,896       843,426      1 43,576         575,520          3.266.444         3, 1 62,339
  Intragovernmental Earned Revenue       ( 1,946)        (9,498)          (696)           (270)       (4, 1 14)       (608)      (1 72,056)     (1 , 1 65)       ( 1 ,698)       (1 92,OS I )      (21 0,374)
  Public Earned Revenue                    (759)          9,9 1 9         (258)           (104)      ( 17,395)        (234)        (1 ,378)        (448)           (653)          ( 1 1.3 1 0)     ( 1 03,55 1)
     Total Earned Revenue               (2,705)             42 1           (954)          (374)      (21 ,509)        (842)      (1 73.434)     ( 1 ,6 1 3)      (2.35 1 )      {203.36I)          (3 1 3,925)
Net Program Costs                     5 1 4,255        738,66 1       248,906          60,695        26,388        89,054        669,992      1 4 1 ,963      573, 1 69        3,063,083         2,848,4 1 4
                                                                                                                                                                                (continued on next page)




                                                                                                                                                                                            54
                                                                                                      USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
                                               I NT R A G OV E R N M E N TA L C OSTS A N D E A R N E D R E V E N U E
                                                                         BY R E S P O N S I B I L I T Y S E G M E NT
I
                                                                   fOI   (l,e Yeul, Elided Sel)(CllliJcl 3 0. 2 0 1 1 Ulld 2 0 1 0
                                                                                         (III TiJou,ul{(I,)

                                                                                                                                                latin
                                         Afghanl-                                                                        Europe               America
                                          stan &                                                                           &           Global     &           Middle          20 1 1           20 1 0
    Objective                            Pakistan          Africa          Asia         DCHA             EGAT            Eurasia       Health Caribbean        East           Total            Total

    Economic Growth
      Intragovernmental Costs                65,m            50,456                              10         9 1 , 1 67      1 2,836              50,564          18,867         289,On             1 55,945
      Public Costs                          8 1 8,3 1 6     550,365       42 1 ,708             503   1 , 1 05,863        183,029               23 1 ,371       536,929       3,848,084         2.757,628
         Total Program Costs                883,493         600,821       42 1 ,708             513   1 , 1 97,030        1 95,865              28 1 ,935       555,796       4, 137,161        2,91 3,573
      Intragovernmental Earned Revenue        (7,545)         (1,929)       2,462                (I)    (1 58,705)           (1,097)             ( 1 ,064)        ( 1 ,788)    (1 69,667)        ( 1 08,929)
      Public Earned Revenue                   (1 ,466)          (742)          (489)              -     (714,050)              (422)                (409)            (688)     (718,266)           (94,465)
        Total Earned Revenue                  (9,01 1)        (2.671)        1 ,973               (I) (872,755)              (1,519)             ( 1 ,473)        (2,476)      (887,933)         (203,394)
    Net Program Costs                      874,482         598, 1 50      423,68 1              512      324,275         1 94,346              280,462         553,320        3,249,228        2,7 1 0, 1 79

    Humanitarian Assistance
      Intragovernmental Costs                  5,609            729           464           1 39,284                          1 54                  91 1          4,699           1 5 1 ,850       1 20,4 1 5
      Public Costs                            93,525            256        42,322        1 ,254,364          5,980          2,361                24,332          64,796        1,.487,936       1 ,5 1 6,623
        Total Program Costs                   99, 1 34          985        42,786        1 ,393,648          5,980          2,5 1 5              25,243          69,495        1 ,639,786       1 ,637,038
      Intragovernmental Earned Revenue          (264)            (I)          (95)            (5,250)                         (17)                  (98)           ( 1 57)          (5,882)          (6,664)
      Public Earned Revenue                     ( 1 03)          (I)          (35)            (2,020)                           (7)                 (38)             (60)           (2,264)          (1 ,287)
        Total Earned Revenue                    (367)            (2)         (1 30)           (7;170)                          (24)                (1 36)          (2 17)           (8,146)          (7,95 1 )
    Net Program Costs                        98,767             983        42,656       1 ,386,378          5,980          2,49 1               25, 1 07         69,278       1 ,63 1 ,640     1,629,087

    Operating Unit Management
      Intragovernmental Costs                  34,270        1 1 ,06 1                      40.78 1        27,585          1 9,232               1 3,0 1 9        2,647         148,595           106,684
      Public Costs                             73,505        82,326                4         75,628        35,931          38,597                49,055          27, 1 96       382;142           274,6n
        Total Program Costs                  1 07,n5         93,387                4       1 1 6,409       63,5 1 6        57,829                62,074          29,843         530,837           38 1 ,361
      Intragovernmental Earned Revenue           (1 18)         (682)          (42)             (345)        (46 1)           (261)                 (24 1)           (73)         (2.223)           (2,888)
      Public Earned Revenue                        (45)         (151)          ( 1 6)           (1 33)       (176)            (100)                   (93)           (28)           (742)             (558)
        Total Earned Revenue                     ( 1 63)        (833)          (58)             (478)        (637)            (361)                 (334)          (101)          (2.965)           (3,446)
    Net Program Costs                       1 07,6 1 2      92,554            (54)        1 1 5,9] 1      62,879          57,468                6 1 ,740         29,742        527,872           ]77,9 1 5
    Net Cost of OperatioM                $2,449,477 $ 1 ,783,647 $ 1 , 1 03,545 $ 1,841 ,957 $435,9 1 6 $584,5 1 2 $669,992                   $835, 1 72     $ 1 ,539,475 $ 1 1,243,693 $ 1 0,406,296




                                                                                                                                                                                             55 

         USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION 

     NOTE 1 7. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGM ENT

     The Suborganization Program Costs/                           directly support the Agency goals while                             are (i) the Geographic Bureaus and (ii) the
     Program Costs by Segment categorizes                         the remaining bureaus and offices support                           Technical Bureaus. The Geographic
     costs and revenues by Objectives, Program                    the operations of these bureaus. To report                          Bureaus include: Mrica; Asia; Middle
     Areas and Responsibility Segment.                            the full cost of program outputs, the                               East; Latin America and the Caribbean;
                                                                  cost of support bureaus and offices are                             and Europe and Eurasia; and Mghanistan
     A responsibility segment is the                              allocated to the outputs of the geographic                          and Pakistan (OAPA) . Prior to FY 201 1
     component that carries out a mission or                      and technical bureaus. Intra-agency                                 OAPA was included in the Asia Bureau.
     major line of activity, and whose managers                   eliminations are allocated to Program                               Technical Bureaus consist of: Democracy,
     report directly to top management.                           Areas to reflect total costs.                                       Conflict, and Humanitarian Assistance
     The geographic and technical bureaus                                                                                             (DCHA); Economic Growrh, Agricul­
     of USAID (below) meet the criteria of                        The FY 201 1 Consolidated Statement of                              ture, and Trade (EGAT) and Global
     a responsibility segment. These bureaus                      Net Cost major responsibility segments                              Health (GH).




                                               S C H E D U L E O F COSTS BY R E S P O N S I B I LI T Y S E G M E NT
                                                                      10 '      rllc   Ycw [{Hied ScfJr c ' JI/JC{ ]0. 2 0 1 1
                                                                                           (I" 7 /JOtNJIlc/')

                                                                                                                                  Europe                       Latin
                                               Afghanistan                                                                          "               Global   America Br          Middle        Consolidated
Objective                                      " Pakistan         Africa                Asia          DCHA           EGAT         Eurasia           Health   Caribbean            East            Total

Peace and Security
  Counter-Terrorism
     Gross Costs                                $         264 $     25.362 $                   88 $         -    $          - $           -     $        - $           -     $      3.630 $          29.344
     Less: Earned Revenues                                 (I)         (96)                                                                                                           (1 0)            (I O
     Net Program Costs                                    263       25.266                     88                                                                                   3.620            29.237
  Combating Weapons of Mass Destruction (WMD)
     Gross Costs                                                                                                                    1 3.789                                                          1 3.790
     Less: Earned Revenues                                                                                                             (1 65)                                                           (165)
     Net Program Costs                                                                                                              1 3.624                                                          1 3.625
  Stabilization Operations and Security Sector Reform
     Gross Costs                                      1 2.392        4.883                5.089                                      2.894                      17.533             (6.393)           36.398
     Less: Earned Revenues                                 (4)         (22)                  0                                         (20)                       (1 00)                9              (1 39)
     Net Program Costs                                1 2.388        4.86 1               5.087                                      2.B74                      17.433             (6.384)           36.259
  Counter-Narcotics
     Gross Costs                                    1 24.715               IB            66.325                                        175                     1 1 2.095                (2)         303.326
     Less: Earned Revenues                               (9B7)                             (3 1 1 )                                      (I)                         (644)                           (1 .943)
     Net Program Costs                              I 23.72B               IB            66.0 14                                       174                     1 1 1 ,45 1              (2)         301 .3B3
  Transnational Crime
     Gross Costs                                        5.339          176                 1 .73 1                      B52          5.00 1                         340             2.044            1 5.483
     Less: Earned Revenues                                  (7)          (I)                   (2)                       (9)           (3B)                          (3)               (7)               (67)
     Net Program Costs                                  5.332          1 75                1 .729                       843          4.963                          337             2.037            1 5.4 1 6
  Conflict Mitigation and Reconciliation
     Gross Costs                                    179.91 3        69.609               70.7n        1 84.627        6.054         28.7B2                       4.47B               (B08)          543.432
     Less: Earned Revenues                               (556)        (32                 (196)          (964)          (63)         (IBB)                         (22)                 8            (2.308)
     Net Program Costs                              179.357         69.282               70,58 1      I B3.663        5.99 1        2B.594                       4.456               (BOO!          541 . 1 24
     Total Peace " Security                        32 1 ,068       99,601              1 43,500       183,663         6,834        50,119                      1 33,677            ( 1 ,519)        937,044
                                                                                                                                                                                    (continued on next page)




                                                                                                                                                                                               56
                                                                                                         USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
                                       S C H E D U L E O F C O STS BY R E S P O N S I B I LI T Y S E G M E NT (continued)
                                                               FOI tllc Y C O I E lldeci SCjJ l cI'Jilc' 3 0 7 0 I I
                                                                                      (/'1 i llolI\o'J d\)
                                                                                                                           Europe                      Ladn
                                                 Afghanistan                                                                 &          Global       America &      Middle        Consolidated
Objective                                        & Pakistan      Africa          Asia           DCHA          EGAT         Eurasia      Health       Caribbean       East            Total

Governing Justly and Democratically
  Rule of Law and Human Rights
     Gross Costs                                     44,406         32,757         1 9,659        2,487         3,234       36,292                      62,375        3 1 ,888        233,098
     Less: Earned Revenues                             (161)          (183)            (57)         (4 1)           (45)      (299)                       (352)           (107)        (1 ,245)
     Net Program Costs                               44,245         32,574         1 9,602        2,446         3 , 1 89    35,993                      62,023        3 1 ,78 1       23 1 ,853
  Good Governance
     Gross Costs                                    396,888         86,092       1 79,565        69, 1 3 1      5,675       45,976                      76,636       1 60, 1 96      1 ,020, 1 59
     Less: Earned Revenues                           (1,72?}         (4 1 8)         (609)        (345)           (43)       (383)                        (574)          (688)           (4,78?}
     Net Program Costs                              395, 1 6 1      85,674       1 78,956        68,786         5,632       45,593                      76,062       1 59,508        1 ,01 5,372
  Political Competition and Consensus-Building
     Gross Costs                                     50,895         95,04 1       29,072          8, 105                    27,457                      37,305         9,937          257,8 1 2
     Less: Earned Revenues                             (345)          (494)         (122)          ( 1 08)                    (247)                       (253)          (71 )         (1 ,640)
     Net Program Costs                               50,550         94,547        28,950          7,997                     27,2 10                     37,052         9,866          256, 1 72
  Civil Society
     Gross Costs                                     43,438         41,1 16        1 7,384       1 5,670          748       82,803                      1 7, 1 85    1 1 4,792        333, 1 36
     Less: Earned Revenues                             (1 0 1)        (214)            (36)         (1 21)         (9)        (675)                         (99)         (452)         (1 ,70?}
     Net Program Costs                               43,337         40,902         1 7,348       1 5,549          739       82, 1 28                    1 7,086      1 1 4,340        33 1 ,429
     Total Governing Justly and
       Democradcally                               533,293        253,697        2"',856        94,778          9,560      1 90,924                   1 92,223      3 1 5,495       1 ,834,826
Investing in People
  Health
     Gross Costs                                   1 1 3,8 1 9     462,833        63,955         10,547        1 2, 1 84    5 1 ,507     843,426       40,946        1 60,6 1 0      1 ,759,827
     Less: Earned Revenues                            ( 1 , 1 45)     1 ,724        (404)           (65)          (147)        (536)    (1 73,434)     (1 ,044)          (577)       (175,628)
     Net Program Costs                             1 1 2,674      464,557         63,55 1        10,482        1 2,037      50,971       669,992       39,902        1 60,033        1 ,584, 1 99
  Education
    Gross Costs                                    1 65,809        23 1 ,305      84,344         14,678         9,998       22,740                      6 1 ,387     1 55,781         746,042
    Less: Earned Revenues                               (984)       (I ,04?}        (34?}           (88)          (9?}       (1 70)                        (29?}         (525)         (3,555)
     Net Program Costs                             1 64,825        230,258        83,997         14,590         9,90 1      22,570                      61,090       1 55,256         742,487
  Social and Economic Services and Protection forVulnerable Populations
    Gross Costs                                    237,332          44, 102      1 0 1 ,561      35,843        25,71 5      1 5,650                    4 1 ,243      259, 1 29        760,575
     Less: Earned Revenues                                (576)        (256)           (203)       (220)      (2 1 ,265)       (1 37)                      (272)      ( 1 ,249)       (24, 1 78)
    Net Program Costs                              236,756          43,846       1 0 1 ,358      35,623         4,450       1 5,5 1 3                  40,971        257,880          736,397
    Total Investing In People                     5 1 4,255       738,661        248,906        60,695        26,388       89,054       669,992       1 4 1 ,963    573, 1 69       3,063,083
Economic Growth
  Macroeconomic Foundation for Growth
      Gross Costs                                      6,460        1 1 ,587      37, 1 05             3      4 1 2,358     1 3,609                      3,405       236,3 1 6        720,843
      Less: Earned Revenues                            e4 1)             (1 6)      (256)                    (396,765)          (83)                        (4)       (1 ,249)       (399, 1 1 4)
      Net Program Costs                                5,7 1 9      1 1 ,571      36,849               3        1 5,593     1 3,526                      3,401       235,067          32 1 ,729
  Trade and Investment
      Gross Costs                                    40, 1 1 5      27,747         1 4,802                      4,308       1 1 ,352                   22,936         1 5,932          1 37, 1 93
      Less: Earned Revenues                            (204)          (132)            (64)                        (6?}          (76)                    ( 1 1 3)         (58)             (71 4)
      Net Program Costs                              39,9 1 1       27,6 1 5       1 4,738                      4,24 1      1 1 ,276                   22,823         1 5,874          1 36,479
  Financial Sector
      Gross Costs                                     1 6,522       1 3,67 1        8,3 10                    480,255       1 6,942                          53       30,787          566,541
      Less: Earned Revenues                               e8)           (64)          (2?}                   (471 ,959)       (1 39)                                    (1 3 1)      (472,398)
      Net Program Costs                               1 6,444       1 3,607         8,283                       8,296       1 6,803                          53       30,656           94, 1 43
  Infrastructure
      Gross Costs                                   409,622        1 25,896      1 98,0 1 4                    1 4,3 1 5    45,590                      1 2,60 1      64,756          870,795
      Less: Earned Revenues                          (6,3 1 0)         (623)        2,901                         (151)       (382)                         (93)        (257)          (4,9 1 5)
      Net Program Costs                             403,3 1 2      125,273       200,91 5                      1 4, 1 64    45,208                      1 2,508       64,499          865,880
                                                                                                                                                                       (continued on next page)

      USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
                                                                                                                                                                                       57
                                        S C H E D U L E O F COSTS BY R E S PO N S I B I LI T Y S E G M E N T (contin ued)
                                                                      For tile YC(}f Elided Scptf'rlliJu 3 0. 2 0 I       I
                                                                                     (III Tilou\ollch)
                                                                                                                              Europe                    Latin
                                              Afghanistan                                                                       &           Global    America &         Middle           Consolidated
Objective                                     & Pakistan         Africa         Asia           DCHA          EGAT             Eurasia       Health    Caribbean          East               Total
  Agriculture
     Gross Costs                                  255,321         290,990        96,050                      1 6 1 ,346        26,979                    6 1 , 1 48        43,43 1             935,266
     Less: Earned Revenues                         ( 1 , 1 44)     (1 ,259)        (399)                       (2,41 7)          (202)                      (335)            ( 155)             (5,9 1 1)
      Net Program Costs                           254, 1 77       289,73 1       95,65 1                     1 58,929          26,777                    60,8 1 3          43,276              929,355
  Private Sector Competitiveness
     Gross Costs                                   69,086          30,192        3 1 ,055            393       5, 1 70         69,999                    45, 1 33          50,440              30 1 ,468
     Less: Earned Revenues                           (296)           (1 33)           (98)            (I)        (72)            (562)                     (249)             (189)              ( 1 ,600)
     Net Program Costs                             68,790          30,059        30,957              392       5,098           69,0437                   44,884            50,25 1             299,868
  Economic Opportunity
     Gross Costs                                   4 1 ,614        1 8,782        18,986                      27,483            6,867                    1 4,607           60,583               188,923
     Less: Earned Revenues                            (175)            (72)          (60)                      (332)              (4                        ( 1 00)         (214)                 (1 ,000)
     Net Program Costs                             4 1 ,439        1 8,710        18,926                      27, 1 5 1         6,820                    14,507            60,369               1 87,923
  Environment
     Gross Costs                                   44,752          8 1 ,958      1 7,384             1 13     9 1 ,795          4,528                   122,05 1           53,55 1             4 1 6, 1 32
     Less: Earned Revenues                            (62)            (374)          (22)              (I)       (992)            (29)                        (578)          (223)               (2,28 1 )
     Net Program Costs                             44,690          8 1 ,584      1 7,362             1 12     90,803            4,499                   1 2 1 ,473         53,328              4 1 3,851
     Total Economic Growth                       874,482         598, 1 50     423,68 1             512      324,275          1 94,346                 280,462           553,320           3,249,228
Humanitarian Assistance
  Protection,Assistance and Solutions
     Gross Costs                                   96,66 1            (10)       40,286        1 ,271 ,456                      2,398                    23,435            69,497             1 ,503,723
     Less: Earned Revenues
                                                    (348)               I          (1 24)          (6,730)                        (22)                    (125)              (2 1                 (7,565)
     Net Program Costs                             96,3 1 3            (9)       40, 1 62      1 ,264,726                       2,376                    23,3 10           69,280             1 ,496, 1 58
  Disaster Readiness
     Gross Costs                                     1 ,434           994          1 ,280       122, 1 92      5,980               86                      1 ,808                (2)           1 33,772
     Less: Earned Revenues                               (I)           (2)             (I )         (54 1)                         (I)                        (I I)                                (557)
     Net Program Costs                               1 ,433           992          1 ,279       1 21 ,65 1     5,980               85                      1 ,797                0             1 33,2 1 5
  Migration Management
     Gross Costs                                     1 ,039                        1 ,221                                          30                                                             2,29 1
     Less: Earned Revenues                              (18)                           (6)                                                                                                          (24)
     Net Pro m Costs                                 1 ,021                        1 ,2 1 5                                        30                                                             2,267
    Total Humanitarian Assistance                 98,767             983        42,656        1 ,386,378       5,980            2,491                   25,107            69,278           1 ,63 1 ,640
Operating Unit Management
  Cross-cutting Management and Staffing
     Gross Costs                                   1 7,072          4,90 1                         1 ,026       (71 1)          2,85 1                      499              1 , 1 26           26,764
     Less: Earned Revenues                             (48)           (45)           (17)              (3)          7             (15)                                             (3)            (1 24)
     Net Program Costs                             1 7,024          4,856            (17)          1 ,023       (704)           2,836                       499              1 , 1 23           26,640
  Program Design and Learning
    Gross Costs                                    21 ,884        28,490                          5,32 1      1 6,225           5,376                     6,574             9,485               93,355
     Less: Earned Revenues                             (27)         (1 39)             (9)          (25)         (203)             (45)                     (29)              (38)                (5 1 5)
     Net Program Costs                             21 ,857        28,35 1              (9)        5,296       1 6,022           5,331                     6,545             9,447               92,840
  Administration and OverSight
     Gross Costs                                   68,8 1 9       59,996              4         1 10,06 1     48,003           49,602                    55,000            1 9,233             4 1 0,7 18
     Less: Earned Revenues                            (88)          (649)           (32)            (449)      (442)             (30 1)                    (304)               (6 1)            (2,326)
    Net Pro m Costs                                68,73 1        59,347            P8l         1 09,6 1 2    47,56 1          49,30 1                   54,696            1 9, 1 72           408,392
    Total Operating Unit Management              1 07,6 1 2       92,554            i54!       1 1 5,93 1    62,879           57,468                    6 1 ,740          29,742              527,872
Net Cost of Operations                        $ 2,449,477 $ 1 ,783,647 $ 1 , 1 03,545 $ 1,841,957 $ 435,9 1 6 $ 584,5 1 2                 $ 669,992 $ 835, 1 72       $ 1 ,539,475 $ 1 1 ,243,693




                                                                                                                                                                                         58
                                                                                                    USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
NOTE 1 8. STATEMENT OF BUDGETARY RESOURCES

The Combined Statement of Budgetary                     USAID's total budgetary resources were             D. Legal Arrangements Affecting
Resources presents information about                    $23.S and $24.9 billion for the years              the Use of Unobligated Balances:
total budgetary resources available to                  ended September 30, 20 1 1 and 201 0,
USAID and the status of those resources,                respectively.                                      The "Department of Defense and

as of September 30, 20 1 1 and 20 1 0.                                                                     Full-Year Continuing Appropriations
                                                                                                           Act, 20 1 1 " signed into law as Public Law

A. Apportionment Categories of Obligations Incurred:                                                       1 1 2-1 0 provides to USAID extended
                                                                                                           authority to obligate funds. USAID's
                                                                                                           appropriations acts for years have
   A P P O RT I O N M E NT C AT E G O R I E S OF O B L I G AT I O N S I N C U R R E D
                                                                                                           consistently provided essentially similar
                                         ii( 1 ill   U::s'" ,I, I
                                                                                                           authority. It is commonly known as
                                                                        20 1 1              20 1 0         " 5 1 115 1 7" authority, a name that is
 Category A, Direct                                                 $    1 .430.0 1 9   $    1 .335.392    based on references to the sections of the
 Category B. Direct                                                     1 1 .869. 188       14, 1 56,447   previous appropriations acts. Under this
 Category A, Reimbursable                                                   38.866              56,747     authority funds shall remain available for

 Category B, Reimbursable                                                  1 57,035            1 26,297    obligation for an extended period if such
                                                                                                           funds are obligated within their initial
 Total                                                              $   1 3.495, 108    $   1 5,674,883
                                                                                                           period of availability. Any subsequent
                                                                                                           recoveries (deobligations) of these funds
                                                                                                           become unobligated balances that are
B. Borrowing Authority, End of                         C. Permanent Indefinite
                                                                                                           available for reprogramming by USAID
Period and Terms of Borrowing                          Appropriations:
                                                                                                           (subject to OMB approval through the
Authority Used:
                                                        USAID has permanent indefinite appro­              apportionment process) .
The Agency had $96 thousand in                          priations relating to specific Federal
borrowing authority in FY 20 1 1 and                    Credit Reform Program and Liquidating
$900 thousand in borrowing authority in                appropriations. USAID is authorized
                                                                                                           E. U npaid Obligations:
FY 2010. Borrowing authority is indefi­                 permanent indefinite authority for Federal
                                                                                                           Unpaid Obligations for the periods ended
nite and authorized under the Federal                  Credit Reform Program appropria­
                                                                                                           September 30, 20 1 1 and 201 0 were $17.5
Credit Reform Act of 1 990 (Title XIII,                 tions for subsidy reestimates and Federal
                                                                                                           and $ 1 7.9 billion, respectively.
Subtitle B, P.L. 1 0 1 -50S), and is used to            Credit Reform Act of 1 990. At year-end
finance obligations during the current                 FY 20 1 1 , there is $2.7 billion in avail­
year, as needed.                                       ability related to Federal Credit Reform
                                                       Program and Liquidating appropriations.




                                                                                                                                                      59
USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
F. Difference between the Statement of Budgetary Resources and the
Budget of the U.S. Government:

There are no material differences between                Budget with acrual numbers for 20 1 1 has                 FY 20 1 1 reported results when the budget
the Statement of Budgetary Resources                     not yet been published. USAID expects                     becomes available in February 2012.
for FY 201 1 and the President's Budget                  no material difference between the Presi­
submission for FY 20 1 1 . The President's               dent's Budget "acrual" column and the



                          D I F F E R E N C E B E TW E E N TH E STAT E M E NT O F B U DG ETARY R E S O U RC E S A N D
                                                     T H E B U D G ET O F T H E U . S . G OV E R N M E NT
                                                                        I   III I l l OlI\OIl(/; ,
                                                                                                                          Distributed
                                                                            Budgetary                                     Offsetting
                                20 1 1                                      Resources                Obligations           Receipts          Net Outlays
 Combined Statement of Budgetary Resources                              S       23.79 1,9 1 9        S   1 3,495,108      S    (m,859)       S   1 0,628,308
 Difference # I : Funds Reported by Other Federal Entities                       (1 ,020,246)              (697,997)                              (586,93 1)
 Difference #2: Child Activity Reported in FACTS II by USAID                      7, 1 54,622            5,924,994                               5,5 1 2,644
 Difference #3: Reported in the SBR but Excluded from SF- 1 33s                         9,475                   137
 Difference #4: Parent/Child Reporting Differences
 Difference #5: Reporting Difference between the SBR and SF- 1 33s                   133,278                1 65,956                                 (3,936)
 Difference #6: Credit Financing and Suspense                                       (41 7,939)              (73,360)                                49, 1 69
Budget of the U.S. Government                                           S       29,65 1,109          S   18,8 14,838      S    (m.a59)       S   15,599,254




                                                                                                                                                         60
                                                                                            USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
    NOTE 1 9. RECON C I LIATION OF N ET COST OF OPE RATIO N S TO BUDGET

USAID presents the Consolidated Statement of Net Cost using the accrual basis of accounting. This differs from the obligation-
based measurement of total resources supplied, both budgetary and from other sources, on the Combined Statement of Budgetary
Resources. The Federal Financial Accounting Standard No. 7 requires "a reconciliation of proprietary and budgetary information in a
way that helps users relate the two." The focus of this presentation is to reconcile budgetary net obligations to the net cost of operations.
The objective of this information is to categorize the differences between budgetary and financial (proprietary) accounting.

I
                    R EC O N C I L I AT I O N O F O B LI GATI O N S I N C U R R E D TO N E T COST O F O P E R AT I O N S
                                                          ror I l l "   y, (lrs [ Ilclccl SCfJ I C I 1 l /J,'( 3 0 , 7 0 1 1 (lllc! 2 0 1 0
                                                                                        ( Il l T h ousrlllcls)

                                                                                                                                                             20 1 1                           20 1 0
    Resources Used to FinanceActivities:
       Budgetary Resources Obligated
          Obligations Incurred                                                                                                                        $ 1 3,495. 1 08                   $ 1 5.674,883
          Spending Authority From Offsetting Collections                                                                                                   ( 1 .029,378)                     ( 1 ,506, 1 43)
          Change in Unfilled Customer Orders                                                                                                                     (227.554)                     (458,220)
          Downward Adjustments of Obligations                                                                                                               (2.046.698)                        (676,857)
          Offsetting Receipts                                                                                                                                    (3n.859)                        (96,395)
       Net Obligations                                                                                                                                      9.8 1 3.61 9                     1 2,937,268
       Other Resources Used to Finance Activities                                                                                                                  1 6. 1 00                       9,845
       Resources Used to Finance Activities                                                                                                                 9.829.7 1 9                      1 2,947. 1 1 3
       Resources Used to Finance Items Not Part of Net Cost of Operations                                                                                    1 .8 1 3.n7                     ( 1 ,890.335)
    Total Resources Used to Finance Net Cost of Operations                                                                                                 1 1 .643.496                      1 1 .056.778

    Components of the Net Cost of Operations:
       Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods                                                             (34.054)                     (593,889)
       Components of Net Cost of Operations That Will Not Require or Generate Resources                                                                          (365.749)                       (56,593)
    Net Cost of Operations                                                                                                                            $ 1 1 .243.693                    $ 10.406.296




NOTE 20. RESTATEM ENT O F TH E STATEMENT O F BUDG ETARY RESOURC ES
FOR FY 20 1 0

The Statement of Budgetary Resources for 20 10 has been restated to reflect the correction of an error in Net Outlays. In 2010,
Distributed Offsetting Receipts was reported as $71 .7 million when it should have been $(96.4) million a reporting difference of
$(168.1) million. The correction does not impact any of the other principal statements and has no impact on Assets, Liabilities,
Net Position or Net Cost of Operations for FY 20 10 of the Agency.


                                           R E STAT E M E N T O F F Y 20 1 0 N ET O U T LAYS                                            (Ill T h OU'rll l''' ,

                                                             Reported in 2 0 I 0                                                                                        Reported In 20 I I
                                                                           20 1 0                                Reporting Difference                                               20 1 0
                                                                              Non- Budgetary                                                                                          Non- Budgetary
                                                    Budgetary                 Credit Reform                               Budgetary                          Budgetary                Credit Reform
    Net Outlays:
       Gross Outlays                                $ 1 1 .435,590               $         62.033                        $                                  $ 1 1 .435,590              $        62.033
       Less: Offsetting Collections                    ( 1 . 1 66,959)                  (800,209)                                                                 ( 1 . 1 66.959)              (800.209)
       Less: Distributed Offsetting Receipts                7 1 ,742                                                             ( 1 68, 1 37)                        (96.395)
    Net Outlays                                     $ 10.340.373                 $      (738.1 76)                       $      ( 1 68, 1 37)               $ 1 0. 1 72.236             $      (738. 1 76)




USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION                                                                                                                                            61
                                                      302          1 000         305            1010              1 02 1           1 03S       1 037           1 093         1 095

Budgetary Resources:
Unobligated Balance, Brought Forward, October I   $         8   $ 442,238 $ 8,535             $ 24,92 1        $ 6n,892         $ 407, 1 1 5 $ 3,838,036 $ 22,663 $ 20,3 1 2 $2,384,581 $ 905,861                           $ 549,980 $ 9,282, 142
     Changes to Beginning Balance Due to
         Adjusanent from OM8                                         (8,057)                                        (1 ,423)          (295)                     (1 ,759)                      (2,592)           3,8 1 6                        ( 1 0,3 1 0)
Unobligated Balance, Brought Forward,
   as Adjusted                                              8      434, 1 8 1    8,535          24,921            676,469         406,820     3,838,036         20,904       20, 3 1 2    2,381 ,989        909,6n            549,980      9,271,832
Recoveries of Prior Year Unpaid Obligations                         51 ,547      2,28 1         22,730            255,508          1 93,983     390, 140       1 89,391      93,329               310       766,486            80,993      2,046,698
8udgetAuthority:
   Appropriations                                                 1 ,350,000     5,000                          2,525,000         865,000     5,958, 1 01                                            -
                                                                                                                                                                                                          1 , 1 71 ,6 1 7                 1 1,874,7 1 8
    Borrowing Authority                                                                                                                                                                            96                                                 96
   Spending Authority from
      Offsetting Collections:
       Earned:
            Collected                                               32, 182      1 ,280                              4,675              47      (81,781)                                    28 1 , 1 33     789,330             2,743      1 ,029,609
            Change in Receivables from
               Federal Sources                                         (215)                                                                                                                                                      (16)             (23 1)
       Change in Unfilled Customer Orders:
            Unfilled Customer Orders
               With Advance                                                                                                                                                                                 21 7,836                          21 7,836
            WithoutAdvance from
               Federal Sources                                         (287)                                          (1 1 7)           (2)       (4,3 18)                                                    1 4,442                            9,7 1 8
   Subtotal                                                      1 ,38 1 ,680    6,280                          2,529,558         865,045     5,872,002                                     28 1 ,229     2,193,225             2,727     1 3, 1 3 1 ,746
Nonexpenditure Transfers, Net,
  AntiCipated and Actual                                              6,500     ( 1 ,0 1 6)                         (5,435)                    (54 1 , 1 64)                                        (7)     166, 1 25         386,547           1 1 ,550
Permanently Not Available                                            (5,442)        ( 1 0)       ( 1 , 1 70)        (6,1 02)        (5,963)    (1 37,424)      (14,933)         (747)                      (498, 1 1 6)                       (669,907)
Total Buciptiry Resources                         $         8   $ 1 ,868,466 $ 16,070         $ 46,481         $ 3,449,998      $ 1,459,885 $ 9,42 1 ,590 $ 195,362 $ 1 12,894 $2,663,521 $3,537,397 $1 ,020,247 $ 23,791,919


Status of Budgetary Resources:
Obligations Incurred:
   Direct                                         $         -
                                                                $ 1 ,399,558 $ 7,220          $ 42,m $ 2,352,955                $1 ,222,565 $ 4,864,994 $ 1 8 1 ,000 $ 8 1 , 1 26 $ 242, 156 $2,206,857 $ 697,997 $ 1 3,299,207
   Reimbursible                                                     3 1 ,895     1 ,280                              4,558              44      (86,098)                                                    244,222                           195,901
   Subtotal                                                      1 ,43 1 ,453    8,500          42,m            2,357,5 1 3      1 ,222,609   4,n8,896         181 ,000      8 1 , 1 26     242, 156      2,45 1 ,079         697,997     1 3,495, 1 08
Unobligated Balance:
   Apportioned                                                     299,03 1      7,396            2,51 1         1,032,694        236,656     4,620,300         1 1 ,7 1 6   30,195         3 1 0,302       n2,99 I           252,044      7,575,836
   Subtotal                                                        299,031       7,396            2,51 1         1 ,032,694       236,656     4,620,300         1 1 ,7 1 6   30, 1 95       3 1 0,302       n2,99 I           252,044      7.575,836
Unobligated Balance NotAvailable                            8      1 37,982         1 74          1,191            59,791             620        22,394          2,646         1 ,573     2,1 1 1 ,063      3 1 3,327          70,206      2,nO,975
Total, Status of Buclptary Resources              $         8   $ 1 ,868,466 $ 1 6,070        $ 46,481         $ 3,449,998      $1 ,459,885 $ 9,421 ,590 $ 195,362 $ 1 1 2,894 $2,663,521 $3.537,397 $ 1 .020,247 $23,791,919

                                                                                                                                                                                                                            (continued on next page)



                                                                                                                                                                                                                                         62
                                                                                                                                 USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
                                                   302           1 000          305            1010            1 02 1            1 035            1 037             1 093          1 095

Chanle in Obligated Balance:
Obligated Balance, Net
   Unpaid Obligations,Brought Forward,
   October I                                     $ 1 5,85     $ 649,225 $ 13,640                  5,728 $ 3,627,5 1 0        $ 1 , 1 07,9%     $ 9,605,In $ 109,517 $ 2 ,039 $                      (2,751) $ I ,BB2, 161            667,8 1      $ 17,921,860
   Changes to Beginning Balance Due to
   Adjustment from OMB                                             8,057                                          1 ,425             294                               1 ,758                       2,592            (3,8 16)                          1 0,3 1 0
   Unobligated Balance,8rought Forward,
   as Adjusted                                      1 5,854      657,282        13,640            5,728      3,628,935        1 , 1 08,2          9,605,1n           1 1 1 ,275    2 ,039             (159)      1 ,878,345          667,8 1        17,932, 1 70
   Less: Uncollected Customer Payments from
   Federal Sources, Brought Forward, October I                   (1 0,386)                          (35)         (2,389)             (205)          (4,3 1 6)             (38)      (1 ,006)             34         (6, 1 7 1 )           (362)        (2 ,874)
   Total Unpaid Obligated Balance, Net             1 5,854       646,896       1 3,6             5,693      3,626,546         1 , 1 08,035       9,600,861          1 1 1 ,237     239,033            (1 25)    1 ,872,174          667,452        1 7,907,296
Obligations Incurred, Net (+1-)                                1 ,43 1 ,453     8,499          42,n9        2,357,5 14        1 ,222,6 1 0       4,n8,895           1 8 1 ,000      8 1 , 1 26    242, 1 56     2,45 1,079          697,997        1 3,495,108
Less: Gross Outlays                               (1 4,886)   (1 ,245,354)    ( 1 4,3 1 2)      1 9,269     ( 1 ,6 1 3,9 18) ( 1 ,223,087)      (5,089,305)         (32, 1 35) (1 50,503)        (241 ,968) ( 1 ,679,880)           (589,674)     ( 1 1,875,753)
Less: Recoveries of PriorYear Unpaid
   Obligations,Actual                                            (51 ,547)     (2,28 1 )       (22,730)       (255,508)        ( 1 93,983)        (390, 1      )   ( 1 89,39 1 )   (93,329)           (3 1 0)    (766,486)           (80,993)      (2,046,698)
Change in Uncollected Customer Payments
   from Federal Sources (+1-)                                         502                                            1 17                  2         4,3 1 8                                                       (I ,     I)               16         (9.486)
Obligated Balance, Net, End of Period
   Unpaid Obligations                                 968        791 ,833       5,546          45,046       4, 1 1 7,023        9 1 3,780        8,904,627           70,750         n,m               (282)     1 ,883,059          695, 1         17,504,827
   Less: Uncollected Customer Payments from
       Federal Sources                                            (9,883)                           (35)         (2,2n)              (203)                  2             (39)      (1 ,006)             35        (20,6 13)             (346)         (34,360)
Total, Unpaid ObJilated Balance, Net,
   End of Period                                      968        781 ,950       5,546          45,0 1 1     4, 1 1 4,75 1       91 3,5n          8,904,629           70,7 1 1      76,327             (247)     1 ,862,4%           6     ,798     1 7,470,467


Net Outlays:
   Gross Outlays                                   1 4,886     1 ,245,354      14,3 1 2        ( 1 9,269)    1 ,61 3,9 1 8    1 ,223,087         5,089,305           32,135        1 50,503      241 ,968       1 ,679,880          589,674        1 1 ,875,753
   Less: Offsetting Collections                                  (32, 1 82)    (1 .280)                          (4,675)               (47)         8 1 ,781                                     (28 1 , 1 33) ( 1 ,007, 1 66)          (2.743)     (1,247, 5)
   Less: Distributed Offsetting Receipts                                                                                                                                                                         (m,859)                             (m,BS9)

Net Outlays                                      $ 1 4,886    $ 1 ,213,172 $ 1 3,032         $ ( 19,269) $ 1 ,609,243        $I ,223,          $ 5,1 7 1 ,086 $ 32, 135 $ I SO,S03 $ (39, 1 65) $ 29 ,855                         $ 586,93 1 $ I O,250, 9




                                                                                                                                                                                                                                                  63
       USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
MAJOR F U N D S                                             OT H E R F U N D S                                       ALLOCATI O N S TO OTH ER A G E N C I E S
Operating Funds                                             Operating Funds                                          1 0 I 0 Special Assistance Initiatives
1000 Operating Expenses of USAID                            0300 Capital Investment Fund (CIF)                       1021 Development Assistance
Program Funds                                               0302 Capital Investment Fund-Recovery Act
                                                                                                                     1 027 Transition Initiatives
1 0 I 0 Special Assistance Initiatives                      0306 Assistance for Europe. Eurasia and Central Asia
                                                                                                                     1035 International Disaster Assistance
1021 Development Assistance                                 1007 Operating Expenses of USAID Inspector General
1035 International Disaster Assistance                      1036 Foreign Service Retirement and Disability Fund      1037 Economic Support Fund

1037 Economic Support Fund                                  Program Funds                                            1 093 Assistance for the NJ.s. of the Former Soviet Union
1 093 Assistance for the NJ.S. of the Former Soviet Union   0305 Civilian Stabilization Initiative                   1 095 Child Survival and Disease Programs Funds
1095 Child Survival and Disease Programs Funds              1 0 1 2 Sahel Development Program
                                                            1 0 1 5 Complex Crisis Fund                              A L LO C ATI O N S F R O M OTH E R A G E N C I E S
CRE DIT FINAN C I N G FUNDS                                 1 023   Food and Nutrition Development Assistance
                                                                                                                     1000 Operating Expenses of USAID
                                                            1 024 Population and Planning & Health Dev.Asst
41 1 9 Israel Guarantee Finandng Fund                                                                                1 0 1 4 Africa Development Assistance
                                                            1 025 Education and Human Resources. Dev.Asst
4 1 37 Direct Loan Financing Fund                                                                                    1030 Global HIV/AID5 Initiative-Appropriations Carry
                                                            1 027 Transition Initiatives
4266 DCA Financing Fund                                                                                                   Over
                                                            1 028 Global Fund to Fight HIV I AIDS
4342 MSED Direct Loan Financing Fund                                                                                 1031 Global Health and Child Survival
                                                            1 029 Tsunami Relief and Reconstruction Fund
4343 MSED Guarantee Financing Fund                                                                                   1 096 International Organizations and Programs
                                                            1038 Central American Reconciliation Assistance
4344 UE Financing Fund
                                                            1 040 Sub-Saharan Africa Disaster Assistance
4345 Ukraine Finandng Fund
                                                            1 096 Latin American/Caribbean Disaster Recovery
449 1 Egypt Guarantee Financial Fund
                                                            1 500 Demobilization and Transition Fund
                                                            Trust Funds
                                                            8342 Foreign Nad. Employees Separation Liability Fund
                                                            8502 Tech.Assist. - U.S. Dollars Advance from Foreign
                                                            8824 Gifts and Donations
                                                            Credit Program Funds
                                                            030 I   Israel Program Fund
                                                            0304 Egypt Program Fund
                                                            0400 MSED Program Fund
                                                            040 I   UE Program Fund
                                                            0402 Ukraine Program Fund
                                                            1 264 DCA Program Fund
                                                            4 1 03 EconomicAssistance Loans - Uquidating Fund
                                                            4340 UE Guarantee Uquidating Fund
                                                            4341    MSED Direct Loan Uquidating Fund
                                                            53 1 8 Israel Admin Expense Fund
                                                            Revolving Funds
                                                            4175 Property Management Fund
                                                            451 3 Working Capital Fund
                                                            4590 Acquisition of Property. Revolving Fund




                                                                                                                                                                         64
                                                                                                 USAID FY 20 I I AGENCY FINANCIAL REPORT I FINANCIAL SECTION
